<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]




 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        WEDNESDAY, MARCH 3, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:11 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Shelby, Hutchison, 
Burns, Inouye, Leahy, and Dorgan.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

STATEMENT OF HON. LES BROWNLEE, ACTING SECRETARY OF THE 
            ARMY
ACCOMPANIED BY GENERAL PETER T. SCHOOMAKER, CHIEF OF STAFF, UNITED 
            STATES ARMY

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning, ladies and gentlemen. I 
apologize for being late. I was presiding over the Senate. We 
have all got too many things scheduled these days.
    Today we are going to receive the testimony from the Acting 
Secretary of the Army and the Chief of Staff on the Army's 
fiscal year 2005 budget request. Secretary Brownlee, we welcome 
you for your first time before our committee. We look forward 
to hearing your plans to modernize the Army. You are no 
stranger to this Senate or to the committee, even though you 
were on the other committee. We are pleased to welcome you back 
as a friend and a colleague.
    General Schoomaker, we welcome you to our committee. We 
look forward to working with you in the coming years, and I 
thank you again for making the trip, the long trip to Alaska 
for the military appreciation dinner there. It is very 
important to our people.
    The Army is now well on its way towards the future with its 
transformation plans. We are at war and this transformation to 
our future force is continuing. It is a huge undertaking to do 
both at the same time. We are also conducting a global war on 
terrorism, the war in Iraq, the war, ongoing activities in 
Afghanistan, and now Haiti. We are constantly reminded of the 
need for a strong, modern, prepared Army, and it is as 
important today as it ever was, more important probably, to 
have a military which has the resources it needs and the 
support of the President and the entire country.
    Today you are deployed all over the globe. We have 320,000 
soldiers deployed or stationed forward, as I am informed. The 
Guard and Reserve are also sharing this burden, with more than 
100,000 reservists and guardsmen mobilized and on active duty. 
The total force is a reality now.
    There are many important issues facing the Army. One of the 
most critical decisions Congress will make this year is how to 
help the Army reorganize and equip itself for future threats.
    I believe you have demonstrated to the Congress and the 
country that the transformation concept is not simply a new 
weapons platform, but a new doctrine, a new organizational 
concept for the Army, and it is a whole new way for the Army to 
fight and win wars. We appreciate your combined commitment to 
the Army and your willingness to serve to ensure that the Army 
remains on the right course.
    It is the intention of this committee to give you the 
support you need to achieve your goal of modernization.
    My distinguished friend from Hawaii is not here this 
morning because he is chairing another committee. He will be 
here soon. We do have other Senators. Do any of you have an 
opening statement to make before we listen to the General and 
the Secretary? Senator Shelby.
    Senator Shelby. Mr. Chairman, I look forward to the 
testimony.
    Senator Stevens. Senator Hutchison.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Mr. Chairman, I will make mine a part of 
the record. But I agree with what you have said. We do have 
boots on the ground in two very dangerous places and our own 
homeland is also now a focus for attack. So the Army is the one 
that is out there, obviously Guard and Reserve. I will be 
interested in hearing how you are going to handle the fatigue 
of the Guard and Reserve and ramp up our active duty forces, 
which you have already addressed publicly, but we hope to hear 
more about, and how you would finance that.
    So you have a huge job and we are here to support you in 
every way. Thank you.
    [The statement follows:]

           Prepared Statement of Senator Kay Bailey Hutchison

    As a member of this committee, I have been privileged to 
visit with our soldiers who are fighting to free Iraqis and 
Afghans who for decades lived perilously under the oppressive 
regimes of Saddam Hussein and the Taliban. These same soldiers 
are proudly working to create an environment where people no 
longer fear the government under which they live and work. They 
are helping to rebuild and secure societies in which freedom is 
a right and not a quantity to be metered out by the few in 
positions of power.
    Unfortunately, as I sit before you today, men and women of 
our Armed Forces are still deployed in harms way. And if 
statistics hold true, some will be either wounded or killed. 
With this in mind, I think it is appropriate and indeed 
necessary for us to ask difficult questions. Knowing how the 
Army is successfully confronting an adversary which does not 
wage open battle against the United States, but seeks less 
direct methods and means for achieving their objectives is 
important. Indeed, the threats to our security have transformed 
themselves into a decidedly unconventional threat. Our enemies 
pursue asymmetrical approaches to warfare, including 
nontraditional threats to the homeland, the use of weapons of 
mass destruction, and modern forms of irregular warfare. Army 
transformation therefore must not only be designed to confront 
the enemy which the Stryker brigades are best suited for, but 
also an unconventional enemy utilizing asymmetric means and 
methods both abroad and at home.
    The greatest challenge for the Army, including the Reserve 
and National Guard, may be organizing, equipping and training 
the force to serve in a more relevant role in Homeland Defense 
and Security. Ironically, the United States is less likely to 
enjoy the kind of sanctuary status from attack in the future 
than in the past. The global transportation network has made 
intercontinental travel more routine. Our borders are porous to 
both the illegal immigrant and the international terrorist 
alike. We now face an implacable enemy willing and able to 
attack the homeland. The increased focus on homeland defense 
and the growing requirement for the Army to divert resources 
away from the more traditional roles and missions of an 
expeditionary Army raise a very important question: How does 
the Army and the DOD intend to fund an on-going global war on 
terrorism, while reorganizing, equipping, and developing 
missions for the active, reserve, and National Guard to best 
defend the homeland against another attack the likes of 9/11?
    While there is no shortage of challenges, I look forward to 
hearing how the Army will continue to overcome them. It is with 
deep gratitude and the utmost respect for the soldiers 
currently serving to defend this great country that I thank you 
for your service and look forward to our discussion on how best 
to prepare for the future.

    Senator Stevens. I apologize. Senator Dorgan, do you have 
any opening statement?
    Senator Dorgan. No, Mr. Chairman.
    Senator Stevens. Senator Cochran, do you have any opening 
statement?
    Senator Cochran. Mr. Chairman, I do not.
    Senator Stevens. Gentlemen, we are prepared to listen to 
your testimony and welcome you here. We all have an enormous 
task to assure that you have the funds and the authority you 
need to keep this modernization going. So, Senator Brownlee--
Secretary Brownlee.
    Mr. Brownlee. Mr. Chairman and distinguished members of 
this committee: Thank you very much for the opportunity to 
appear before you today along with my good friend and fellow 
graduate of the University of Wyoming Reserve Officer Training 
Corps (ROTC) program, the Chief of Staff of the United States 
Army, General Pete Schoomaker.
    General Schoomaker and his family made a very difficult 
decision last summer to leave quite a comfortable and lucrative 
retirement to come back and rejoin the Army. The Army is 
benefiting in an enormous way from his marvelous leadership. I 
am especially honored to appear alongside this great soldier 
today and I am honored to work alongside him every day. I could 
not measure what he has brought to the Army. He has brought a 
new meaning to the word ``transformation'' and he has 
revitalized the spirit of our soldiers with his emphasis on the 
Soldier's Creed and the Warrior Ethos. So it is a great honor 
for me to be here before the committee representing the 
magnificent soldiers of our Army along with the Chief of Staff.
    We have a prepared posture statement, Mr. Chairman, and 
with your permission we would like to submit that statement for 
the record.
    Senator Stevens. We automatically submit all statements for 
the record in this committee.
    Mr. Brownlee. Let me begin by expressing my gratitude for 
the tremendous support to our soldiers who are serving our 
country around the world, as well as to their families at home. 
This support comes from the members as well as from your 
dedicated professional and personal staffs. Your interest and 
involvement in the Army's activities has made a significant 
difference in our soldiers' welfare and their mission 
accomplishment. So to the members and staff of this very 
distinguished committee, on behalf of the United States Army, 
thank you all for what you have done.
    I know that you are deeply interested in the great work our 
soldiers are doing, their training, and their morale and how we 
are equipping them. In the last 9 months I have visited our 
troops in Iraq three times and those in Afghanistan twice and 
traveled to our posts in Germany, South Korea, and here in the 
United States. I am grateful to have the opportunity to share 
what I have learned with you.
    Underlying everything we are doing and planning to do is 
the most important point I want to make here today, and that is 
that we are an Army at war, serving a Nation at war.
    To better cope with the demands of this war, we have 
proposed to grow the Army temporarily by 30,000 soldiers over 
the next several years, using the authority provided in Title 
10 and to be paid for from supplemental appropriations. We will 
plan to use these resources to stand up at least 10 new combat 
brigades over the next several years and ask for your support 
in this endeavor. We are also restructuring our Active and 
Reserve forces to meet the challenges of today and to more 
effectively use the resources the Congress and the American 
people have entrusted to us. This is an ongoing process and we 
will keep the Congress fully informed.
    Let me comment on a matter of grave importance to the 
senior leadership of the Army, sexual assaults on soldiers by 
fellow soldiers. Such attacks not only weaken unit cohesion and 
lessen combat power; they are wrong, they will not be 
overlooked, and they will not be tolerated. The Army is 
committed to identifying and holding accountable those who 
commit such actions as well as committed to providing proper 
care for the victims of such attacks.
    We are dedicated to creating an environment and a command 
climate where these young women feel free to report these 
incidents through multiple venues: the chain of command, 
medical channels, chaplains, and their peers. We will properly 
care for those who have been assaulted and investigate and take 
appropriate action against those perpetrating these crimes. It 
is the right thing to do and we are going to do it.
    Many of you have asked about the measures we are taking to 
protect our forces in Iraq. I would like to address two in 
particular. First, the number of up-armored high mobility 
multipurpose wheeled vehicles (HMMWV's) in the U.S. Central 
Command (CENTCOM) area of responsibility is now over 2,000, 
compared to about 500 last spring. When General Schoomaker and 
I testified before the Senate Armed Services Committee in 
November, we estimated then that we would be unable to satisfy 
the CJTF-7 requirement of 3,000 up-armored HMMWV's until May 
2005. This was unacceptable. We have worked with industry to 
steadily increase production of these vehicles and we will now 
reach a production level of over 4,000 vehicles by August 2004.
    We will ramp up from 185 vehicles this month to 220 by May 
and continue to increase until we reach our requirement. I have 
talked to the chief executive officers (CEO's) of the companies 
that build these up-armored HMMWV's and visited their 
production lines. They are committed to and capable of 
increasing production rates to up to 450 per month to help us 
fill our requirement even faster. While this will require 
additional resources, we are working within the Army budget and 
with the Office of the Secretary of Defense (OSD) so that we 
can achieve this accelerated production level as quickly as 
possible.
    Second, there has been concern about every soldier having 
the best available protection against bullets and explosive 
fragments. To provide this protection, we increased the 
production of Interceptor body armor last year and are 
currently producing and shipping 25,000 sets monthly to the 
theater of operations. There are now sufficient stocks of 
Interceptor body armor to equip every soldier and Department of 
Defense (DOD) civilian in Iraq and Afghanistan, and we will 
fill our requirement for the remainder of the soldiers and DOD 
civilians in theater by the end of this month.
    In summary, we are producing enough body armor so all 
soldiers now rotating into theater will be issued a set of body 
armor either before they deploy into Iraq or immediately after 
arrival in Afghanistan.
    The Army provides relevant and ready campaign-quality land 
power to combatant commanders as a part of a joint force. To 
better do this, we are transforming the Army itself in response 
to lessons learned and experiences gained by the Army's recent 
2\1/2\ years of combat in the global war on terrorism, as well 
as the operational environments envisioned in the foreseeable 
future.
    Last Monday General Schoomaker and I announced the 
termination of the Comanche helicopter program as part of a 
major restructuring and revitalization of Army aviation. In 
lieu of completing development and procuring 121 Comanche 
helicopters in the fiscal year 2005 through fiscal year 2011 
future years defense plan (FYDP), we will propose to reallocate 
these resources to procure almost 800 new aircraft for the 
Active and Reserve components.
    As a part of our total program over the FYDP, we will also 
enhance, upgrade, and modernize over 1,400 aircraft in our 
existing aviation fleet. This program to revitalize Army 
aviation reflects the changed operational environment and will 
provide the modularity and flexibility we must have to achieve 
the joint and expeditionary capabilities that are so essential 
to the Army's role now and in the future.
    The fiscal year 2005 President's budget we have submitted, 
when amended to reflect the termination of Comanche, represents 
a balanced consideration of both our current and long-term 
requirements and provides our Army with the resources we need, 
excluding war-related costs. The tempo of our current 
operations is high and has human and material costs. We 
appreciate the assistance of the Congress in addressing these 
issues as we work to restore our units and equipment to the 
high levels of readiness necessary to continue to meet our 
obligations to the Nation.
    In all that the Army has accomplished and all that it will 
be called upon to do, the American soldier remains the single 
most important factor in our success. Today our soldiers are 
present in over 120 countries around the world, representing 
the American people and American values with courage and 
compassion. I want to express my appreciation for the service 
and the enormous sacrifices made by our soldiers, especially 
those who have given the last full measure, and their families 
as we meet the challenges and risks posed by the war on terror.
    Our deepest thanks go to the members of our Active and 
Reserve component units, as well as to the thousands of 
Department of the Army civilians who are deployed overseas in 
harm's way. Regardless of where our soldiers serve, they 
perform as the professionals they are with skill, courage, 
compassion, and dedication. They embody the values of our Army 
and our Nation, serving selflessly and seeking only to do what 
must be done before returning home.
    Despite remarkable successes, our fight is far from over. 
It will take time to win the war on terror. Our enemies are 
resolute, but hard-line al-Qaeda operatives in Iraq recognize 
they cannot dislodge our forces by fear or intimidation. Our 
commitment to prevail in Iraq and elsewhere is unshakable. I 
have seen the resolution in our soldiers' eyes and heard the 
determination in their voices.
    We must do our part to ensure they have all they need to do 
the job we have set before them. When the American people and 
our leaders stand behind them, they can do any task on Earth.
    We are transforming the Army while retaining the values 
critical to the Army's achievements of the past 228 years. The 
fiscal year 2004 defense legislation and supplemental 
appropriations have enabled the Army to do that which it has 
been asked to do and I look forward to discussing with you how 
the fiscal year 2005 budget request will permit us to continue 
meeting our obligations now and in the years to come.
    Mr. Chairman, in closing I would like to thank you and the 
members of this distinguished committee for your continuing 
support of the men and women in our Army, an Army at war, and a 
full member of the joint team, deployed and fighting terror 
around the world.

                           PREPARED STATEMENT

    I appreciate this opportunity to appear before you today 
and I look forward to answering your questions.
    Senator Stevens. Thank you very much.
    [The statement follows:]

  Prepared Statement of Honorable R.L. Brownlee and General Peter J. 
                               Schoomaker
                                                  February 5, 2004.

    Our Nation is at war. The security of our homeland, the Global War 
on Terror, and sustained engagement around the world define today's 
complex and uncertain strategic environment. The future will be no less 
ambiguous.
    We must prepare now to meet the challenges of tomorrow. Rather than 
focusing on a single, well-defined threat or a geographic region, we 
must develop a range of complementary and interdependent capabilities 
that will enable future joint force commanders to dominate any 
adversary or situation. A capabilities-based approach to concept and 
force development, as articulated in the 2001 Quadrennial Defense 
Review, is the major focus of defense transformation.
    Over the past year our Army has met the demands of the Global War 
on Terror, with more than 325,000 troops deployed around the world in 
over 120 countries. The Army was instrumental in the defeat of Saddam 
Hussein and the Taliban and the subsequent liberation of more than 46 
million people from oppression and despair. The Army remains a central 
and critical participant in Operation Iraqi Freedom and Operation 
Enduring Freedom. Although these and other operations have stressed the 
force, our Soldiers have responded magnificently.
    Our Army's commitment to the Nation remains absolute. While we 
execute the Global War on Terror, our Army simultaneously continues its 
organizational and intellectual transformation to meet the challenges 
of the 21st Century. In support of the National Security Strategy and 
the National Military Strategy we are improving our warfighting 
readiness and ability to win decisively. We also remain dedicated to 
the well-being of our Soldiers, their families and our civilian 
workforce.
    The United States Army is the most powerful land force on earth. 
With this power comes a great responsibility. American Soldiers show by 
their daily actions that they understand this, and are fully worthy of 
the trust the American people have placed in them.
    For 228 years the Army has never failed the Nation, and it never 
will.

                                       Peter J. Schoomaker,
                                General, U.S. Army, Chief of Staff.
                                             R.L. Brownlee,
                                      Acting Secretary of the Army.
                    purpose of the posture statement
    The Army Posture Statement provides an overview of today's Army. 
Focusing on the Soldier, the centerpiece of the force, it explains the 
current and future strategic environments that provide our mandate for 
transformation. Our core competencies and how we intend to meet our 
current demands and future challenges are outlined. It describes what 
we must become in order to provide more ready and relevant forces and 
capabilities to the Joint Team.

             2004 ARMY POSTURE STATEMENT EXECUTIVE SUMMARY

Our Nation At War
    Our Nation, and our Army, are at war. It is a different kind of 
war, fought against a global terrorist network and not likely to end in 
the foreseeable future. In the days following the attacks on September 
11, 2001, President Bush spoke candidly to the Nation. ``These 
terrorists kill not merely to end lives, but to disrupt and end a way 
of life.'' He added: ``The only way to defeat terrorism as a threat to 
our way of life is to stop it, eliminate it and destroy it where it 
grows.''
    Our Army exists to fight and win our Nation's wars. We are an 
integral member of the Joint Team committed to winning in fulfillment 
of our responsibilities to national security. We are fighting to 
preserve the American way of life and to safeguard the many freedoms 
our citizens enjoy. Our Soldiers and their families have not forgotten 
the events of September 11, which launched us to action in Afghanistan 
and Iraq. They are reminded daily of the ongoing conflict through 
separation, concern for forward-deployed loved ones and, most 
regrettably, news of casualties. Our Army continues the mission and 
remains committed to defeating our enemy.

Our Army's Core Competencies
    As our Army fights the current war and remains dedicated to 
transforming, we are focused on our two core competencies: (1) Training 
and equipping Soldiers and growing leaders; (2) Providing relevant and 
ready land power to Combatant Commanders as part of the Joint Force.
    Our Army must be an agile and capable force with a Joint and 
Expeditionary Mindset. This mindset is the lens through which we view 
our service. We must be mobile, strategically deployable and prepared 
for decisive operations whenever and wherever required. We must be 
lethal and fully interoperable with other components and our allies, as 
well as flexible, informed, proactive, responsive and totally 
integrated into the joint, interagency and multinational context. Our 
management and support processes must reflect and support these same 
characteristics.

Strategic Environment--Our Mandate for Transformation
    At the end of the Cold War, the United States had no peer 
competitor. Our Army was much larger and was built around heavy, 
mechanized and armored formations. Because America stood as the lone 
superpower during this time of global realignment, we were able to 
downsize our force structure. Today, the future is uncertain and 
presents many challenges. The emerging challenges manifest themselves 
as new adaptive threats, employing a mix of new and old technologies 
that necessitate changes to the ways in which the elements of our 
national power are applied.
    The 21st century security environment is marked by new actors and a 
noteworthy proliferation of dangerous weapons, technologies and 
military capabilities. While threats from potentially hostile regional 
powers remain, increasingly non-state actors, operating autonomously or 
with state-sponsorship, also are able to endanger regional and global 
security. These forces--insurgents, paramilitaries, terrorists, narco-
traffickers and organized crime--are a growing concern. They often are 
networked and enabled by the same tools and information systems used by 
state actors. Our adversaries will rely more frequently on indirect and 
asymmetric methods, such as anti-access and area-denial strategies, 
unrestricted warfare and terrorism, to mitigate their relative 
disadvantage. The most dangerous of these threats are the development 
and proliferation of weapons of mass destruction (WMD)--including 
biological or chemical agents, or radiological ``dirty bombs''--to 
attack the United States. This security environment requires that the 
Army have the capability to dominate throughout the spectrum of 
conflict and to plan for multiple future contingencies.
    As a result of this adaptive enemy and our worldwide commitments, 
current organizations, systems and facilities are and will continue to 
be stressed. We now rely on our Reserve Component to support our 
operations to a degree not seen since World War II. As of January 14, 
2004, there were more than 164,000 Reserve Component Soldiers mobilized 
with over 139,000 of them serving overseas. The institutional Army is 
being asked to do more, applying lessons learned from current 
operations. These lessons are critical to our organizations and 
individual Soldiers as they prepare for worldwide missions. Therefore, 
the current and future strategic environments require the Army to have 
the capability to dominate throughout the spectrum of conflict and to 
plan for multiple contingencies. These new security challenges, coupled 
with the current war on terrorism, require a different approach.

Army Focus Areas
    Last summer, Army leaders identified immediate focus areas 
instrumental to adapting Army organizations and processes that will 
help us to better meet the Nation's security requirements. All of our 
focus areas should be viewed in the context of our ongoing efforts to 
retain the campaign qualities of our Army while simultaneously 
developing a Joint and Expeditionary Mindset. Of these focus areas, a 
critical enabler is the redesign of our resource processes to be more 
flexible, responsive, and timely. Our goal is to be a better Army every 
day--better able to execute our core competencies as members of the 
Joint Team.

Adapting Resource and Acquisition Processes
    The resource process is at the core of our Army's mission success. 
Our Nation faces a cunning and adaptive enemy, predictable only in his 
zeal and intent. We are just as cunning and our Soldiers are constantly 
changing tactics and techniques in order to disrupt the enemy's plans. 
In the same way, our resource and acquisition processes must become 
more flexible, responsive and timely in order to take immediate 
advantage of technological improvements and to sustain the quality of 
the force over time.

Resetting Our Force
    Quickly resetting our forces upon their redeployment from current 
operations is a strategic imperative. The reset program incorporates 
lessons learned from Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF), retrains essential tasks, adjusts pre-
positioned stocks of equipment and ammunition, and brings unit 
equipment readiness back to standard. Units must recover quickly in 
order to provide the Combatant Commanders with land-power capabilities 
for future requirements. We will face challenges as we rotate troops 
from deployment to home station, while simultaneously maintaining 
vigilance and readiness.
    Continued congressional support and adequate resources are needed 
to accomplish our reset tasks and to mitigate the risk we have incurred 
to our Current and Future Forces. The fiscal year 2004 defense 
legislation and supplemental appropriation delivered substantial 
assistance toward covering the cost of current operations and 
initiating the reset process. We fully appreciate the exceptional 
support Members and their staffs have provided this year. But, the job 
is not complete. In fact, it has only just begun.

Mitigating Strategic Risk Through Increased Land Power Capability
    Today our Army is executing operations in defense of the homeland 
(Operation Noble Eagle); stability and support operations in the 
Balkans (Stabilization Force/Kosovo Force); peacekeeping in the Sinai 
as part of the Multinational Force and Observers (MFO) and combat 
operations in Iraq and Afghanistan (Operation Enduring Freedom/
Operation Iraqi Freedom). We are also forward stationed in Korea and 
elsewhere. Approximately two-thirds of our active and reserve combat 
formations were deployed in fiscal year 2003 and will be deployed in 
fiscal year 2004.
    These deployments, coupled with planned future rotation of units 
into OIF and OEF, the largest movement of Army troops since World War 
II, have highlighted already existing stress to our force. To mitigate 
risk, the Army is embarking on a series of initiatives. The first 
initiative is resetting forces returning from OIF and OEF to a standard 
higher than before their deployment. A second establishes force 
stabilization measures to reduce turbulence amongst Soldiers, units and 
their families. Thirdly, the Army is internally rebalancing Active and 
Reserve Component forces to better posture our existing force structure 
to meet global commitments. And lastly, we are beginning to increase 
the number of available combat brigades through improved force 
management and modular reorganization. This increase allows the Army to 
improve strategic flexibility, sustain a predictable rotation cycle, 
and permits the Reserve Component to reset.
    To facilitate this end state, the Army will seek to maintain, or 
even to increase temporarily, its current level of manning. These 
measures, when resourced, will mitigate risk and ultimately provide 
increased capability to Combatant Commanders.

Conclusion
    Our Nation is at war and our Army is at war; we remain ever 
relevant and ready to meet today's challenges. Yet there is much more 
to do. We are prioritizing wartime requirements, incorporating next-
generation capabilities into current systems where appropriate, and 
preserving essential investments in the Future Force. We also are 
becoming more joint and expeditionary. We do not move forward alone, 
but as part of the Joint Team. We need the support of the American 
people and the U.S. Congress. With this backing, we will continue to 
carry the fight to our enemies to provide security here at home.

                           CORE COMPETENCIES
c
    Our Army has two core competencies, supported by a set of essential 
and enduring capabilities. These core competencies are: (1) training 
and equipping Soldiers and growing leaders; and (2) providing relevant 
and ready land-power capability to the Combatant Commanders as part of 
the Joint Force. Additionally, our Army's senior leadership has 
established immediate focus areas and issued specific guidance for 
planning, preparation and execution of actions aimed at rapidly 
effecting necessary transformation in support of these core 
competencies. See Addendum I (available at www.Army.mil) for more 
information on the Army's focus areas.

Train and Equip Soldiers and Grow Leaders
    Our Army prepares every Soldier to be a warrior. Our training 
replicates the stark realities of the battlefield in order to condition 
Soldiers to react instinctively in combat. Such training is essential 
to building Soldiers' confidence in themselves, their equipment, their 
leaders, and their fellow Soldiers. Constant training in weaponry and 
field craft, and a continuous immersion in the warrior culture, give 
Soldiers the skills they need to succeed on the battlefield. Mental and 
physical toughness are paramount to the development of the warrior 
ethos and apply to all Soldiers from private to general. Every Soldier 
is called upon to be a leader.

            The Soldier
    The American Soldier remains the centerpiece of our combat systems 
and formations and is indispensable to the Joint Team. Adaptive, 
confident and competent Soldiers, infused with the Army's values and 
warrior culture, fight wars and win the peace. As a warrior, every 
Soldier must be prepared to engage the enemy in close combat; the 
modern battlefield has no safe areas. Our Army trains our Soldiers to 
that standard, without regard to their specialty or unit. The Soldier--
fierce, disciplined, well-trained, well-led and well-equipped--
ultimately represents and enables the capabilities our Army provides to 
the Joint Force and the Nation.
    Our Soldiers are bright, honest, dedicated and totally committed to 
the mission. All share common values, a creed and a warrior ethos. Our 
Army defines selfless service as putting the welfare of our Nation, 
Army and subordinates before your own. Soldiers join the Army to serve. 
Most Americans do not fully realize the personal sacrifices these 
Soldiers and their families endure. However, our Soldiers know that 
they have done their part to secure our Nation's freedoms and to 
maintain the American way of life.
    Our Soldiers' Creed captures the warrior ethos and outlines the 
professional attitudes and beliefs that characterize our American 
Soldier. The warrior ethos is about the refusal to accept failure and 
the conviction that military service is much more than just another 
job. It defines who Soldiers are and what Soldiers do. It is linked to 
our long-standing Army Values, and determination to do what is right 
and do it with pride.

            Recruiting and Retaining a High-Quality Volunteer Force
    All of our Soldiers are warriors whose actions have strategic 
impact. Because we are at war and will be for the foreseeable future, 
we must recruit Soldiers who have the warrior ethos already ingrained 
in their character, who seek to serve our Nation, and who will have the 
endurance and commitment to stay the course of the conflict. We must 
recruit and retain Soldiers who are confident, adaptive and competent 
to handle the full complexity of 21st century warfare.
    We will continue to bring the highest quality Soldier into the 
force. All newly enlisted Soldiers are high school graduates (diploma 
or equivalent) and 24 percent have some college. These young Americans, 
who believe service to our Nation is paramount, make our success 
possible. They display a willingness to stand up and make a difference.
    Our recruiting and retention efforts continue to be successful. The 
active Army met its recruiting and retention goals in fiscal year 2003. 
The Army National Guard exceeded its retention goals for fiscal year 
2003 and simultaneously met its end strength objectives. The Army 
Reserve met its recruiting goals and all but one retention target in 
fiscal year 2003. Most importantly, all components sustained their end-
strength requirements.
    We do not know yet the effect the high operational pace of recent 
months will have on our recruiting and retention in fiscal year 2004 
and future years. We must carefully monitor recruiting and retention 
trends and adequately resource our successful recruiting and retention 
initiatives. Incentives such as the Enlistment Bonus Program, The Army 
College Fund and the Loan Repayment Program, have successfully enabled 
the Army to execute precision recruiting in fiscal year 2003. Our 
Special Forces Candidate ``Off the Street'' initiative continues to 
attract highly motivated and qualified warriors. Significantly, 
Selective Reenlistment Bonuses, such as the Present Duty Assignment 
Bonus and the Theater Selective Reenlistment Bonus, which are intended 
to enhance unit stability, have helped us realize our retention 
successes. For more information on recruiting, see Addendum C.

            Civilian Component Enhances Our Capabilities
    Army civilians are an integral and vital part of our Army team. 
They are essential to the readiness of our Army at war and our ability 
to sustain operations. Our civilian employees share our Army values. 
They are smart, resourceful and totally committed to supporting our 
Soldiers and our Army to do whatever it takes to meet the challenges 
that come our way. These dedicated civilians perform critical, mission-
essential duties in support of every functional facet of combat support 
and combat service support, both at home and abroad. Army civilians 
serve alongside Soldiers to provide the critical skills necessary to 
sustain combat systems and weaponry. They work in 54 countries in more 
than 550 different occupations. In fiscal year 2003, nearly 2,000 Army 
civilians deployed to Southwest Asia in support of Operation Iraqi 
Freedom, Operation Enduring Freedom, and the Global War on Terrorism 
(GWOT). They have the education, skills and experience to accomplish 
the mission while ensuring continuity of operations for all commanders.

            Realistic Training--Essential to Mission Success
    Tough, realistic training ensures that our Soldiers and units 
maintain readiness and relevance as critical members of the Joint 
Force. Our Army's combined-arms training strategy, including an 
appropriate mix of live, virtual, and constructive training, determines 
the resource requirements to maintain the combat readiness of our 
troops. We revised our training ammunition standards to allow Combat 
Support and Combat Service Support units to conduct live fire exercises 
under conditions similar to those they might encounter in combat.
    The Army's OPTEMPO budget is among its top priorities. Our 
leadership is committed to fully executing the Active and Reserve 
Component ground and air OPTEMPO training strategies, which include 
actual miles driven and hours flown, as well as virtual miles 
associated with using simulators. The flying hour program is funded to 
achieve a historic execution level of live flying hours per aircrew per 
month. If units exceed the historic execution level, our Army will 
increase their funding. Thus far this year, OPTEMPO execution reports 
show units exceeding their programmed miles driven and hours flown. 
These are the units that are aggressively preparing for deployments to 
OIF and OEF, as well as the units who recently have returned and are 
preparing for future operations. Our combined arms training strategy is 
working and sustaining our warfighting readiness. We see the results 
every day in Afghanistan and Iraq.

            Joint and Expeditionary
    Our Army is the dominant ground component of the Joint Team and 
provides the Joint Force Commander a campaign quality force with unique 
and complementary capabilities. We are vital and indispensable members 
of the Joint Team first and are a Service second. We must remain aware 
that our Army always conducts operations--offensive, defensive, 
stability and support--in a joint and expeditionary context. Acting in 
concert with air and naval power, decisive land power creates a synergy 
that produces a Joint Force with abilities far exceeding the sum of the 
individual service components. Our Army can: support civil authorities 
at home and abroad; provide expeditionary forces at the right time and 
the right place; reassure our allies and multinational partners; deter 
adversaries and, should deterrence fail, decisively defeat the enemy; 
and win the peace through post-conflict operations, in concert with 
interagency and multinational efforts. Our Army must continually 
examine the capabilities resident in and required by the Joint Force. 
We will concentrate our energies and resources on those attributes 
which our Army is best suited to provide to the Joint Force. Our Army 
will arrive on the battlefield as a campaign-quality force fulfilling 
the requirements of the Joint Force Commander--lethal, agile, mobile, 
strategically responsive, and fully interoperable with other components 
within the interagency and multinational context.

            Train and Educate Army Members of the Joint Force
    Our Army is taking action across a broad front to make jointness an 
integral part of our culture by including this concept in our education 
and training programs. We have always produced leaders with the right 
mix of unit experience, training, and education. As we look to the 
future, we know that, to meet our current and future leadership 
requirements and those of the Joint Force, we must redesign aspects of 
our Army's training and leader development programs to include lessons 
learned from current operations. Our objectives are to increase our 
ability to think and act jointly and to provide our Soldiers with the 
latest and most relevant techniques, procedures and equipment that will 
make them successful on the battlefield. Additionally, the changes 
acknowledge the current and projected pace of operations and 
deployments. As a result, we will be better prepared for the current 
and future strategic environments.
    Maintaining a ready Current Force today and achieving a transformed 
Future Force tomorrow requires a shift in the way units train for joint 
operations. Our Army's Training Transformation Initiative (TTI), which 
supports the June 2003 Defense Department Training Transformation 
Implementation Plan, provides dynamic, capabilities-based training and 
mission rehearsal in a joint context.

            Leader Development--Train For Certainty, Educate For 
                    Uncertainty
    Leader development is an essential part of our Army's core 
competencies and the lifeblood of our profession. It is the deliberate, 
progressive and continuous process that develops our Soldiers and 
civilians into competent, confident, self-aware, adaptive and decisive 
leaders. They emerge prepared for the challenges of 21st century 
combined arms, joint, multinational and interagency operations.
    Army leaders at all levels bear responsibility for America's 
Soldiers and accomplishing the mission, whatever it may be. The range 
of missions and their complexity continue to grow, presenting our 
leaders with even greater challenges than previously experienced. The 
evolving strategic environment, the gravity of our strategic 
responsibilities, and the broad range of tasks that the Army performs 
require us to review, and periodically to refocus, the way we educate, 
train and grow professional warfighters.
    We have a training and leader development system that is unrivaled 
in the world. Our professional military education prepared our officers 
and noncommissioned officers to fight and win in Iraq and Afghanistan. 
We will continue to develop our leaders with the right mix of 
operational assignments and training and education opportunities that 
meet the current and future requirements of the Army and Joint Force. 
Our leader training focuses on how to think, not what to think. We will 
maintain our investment in the future by sustaining the highest quality 
leader training and education for our Army.

            Combat Training Centers (CTC)/Battle Command Training 
                    Program (BCTP)
    The CTC program is a primary culture driver for our Army. 
Additionally, our CTCs are a primary enabler of, and full participant 
in, the Joint National Training Capability. The CTCs develop self-aware 
and adaptive leaders and Soldiers and ready units for full spectrum, 
joint, interagency and multinational operations. CTCs continuously 
integrate operational lessons learned into the training. Our Army 
enhances the training experience offered by our CTCs (National Training 
Center in California, Joint Readiness Training Center in Louisiana, 
Combat Maneuver Training Center in Germany and Battle Command Training 
Program based in Kansas) by increasing the focus on development of 
capabilities essential to joint operations. Leader training and 
development during CTC exercises hone the Joint and Expeditionary 
Mindset and promote our Army's warrior culture.
Provide Relevant and Ready Land Power Capabilities to the Combatant 

        Commander and the Joint Team
    To meet global commitments across the full spectrum of military 
operations, our Army has mobilized more than 164,000 Reserve Component 
Soldiers. More than 325,000 American Soldiers are serving overseas and 
more than 23,000 Soldiers are supporting operations within the United 
States. This high operating tempo is no longer an exception. Sustained 
operations and deployments will be the norm for our Army forces 
supporting multiple and simultaneous shaping and stability operations 
around the globe. At the same time, we will continue to contribute to 
Joint Force execution of major combat operations, homeland security 
missions and strategic deterrence.

            Army Global Commitments
    Our Army is engaged in more than 120 countries throughout the 
world. To highlight our Army's commitment, a review of the major 
warfighting formations of the Active and Reserve Component serves as a 
measurable benchmark. Over 24 of the Army's 33 Active Component Brigade 
Combat Teams (BCTs), and five of our 15 Reserve Component Enhanced 
Separate Brigades (ESB) were deployed in fiscal year 2003. This trend 
will continue in fiscal year 2004, with 26 of 33 Active Component BCTs 
and six of our 15 Reserve Component ESB brigades projected for 
deployment.
    The majority of these combat formations are deployed in the U.S. 
Central Command area of responsibility (AOR), effectively executing 
stability and support operations. More than 153,000 Soldiers are 
supporting CENTCOM operations in Iraq, Afghanistan, Kuwait and the Horn 
of Africa. We are currently in the middle of the largest movement of 
troops since WWII, as we rotate more than eight-and-a-half divisions 
and two ESBs to or from the theater. The approximate ratio of Active to 
Reserve Component forces today is currently 63 to 37 percent, 
respectively. Once our current rotation is complete, the ratio will 
change to approximately 54 to 46 percent, Active to Reserve Component. 
Since September 11, we have mobilized almost half of the Reserve 
Component. They are trained, professional, and ready to execute any 
task.
    Army support to other Combatant Commanders remains high. U.S. 
Northern Command's Army component, U.S. Army Forces Command, provides 
more than 23,000 Active and Reserve Component Soldiers for duty in the 
defense of our homeland. These troops are available for missions 
including Military Assistance to Civil Authorities (MACA), emergency 
preparedness, and anti-terrorist operations. The Army Reserve provides 
to NORTHCOM significant voice and data connectivity necessary to 
execute real-time operations. U.S. European Command provides forces, 
such as V U.S. Corps, to CENTCOM; and to Stability Force (SFOR) and 
Kosovo Force (KFOR) in the Balkans. U.S. Pacific Command supports 
ongoing operations in the Philippines, as part of the Global War on 
Terrorism, in addition to maintaining more than 31,000 Soldiers on the 
Korean Peninsula. U.S. Southern Command is fully engaged as the 
headquarters for 1,500 Soldiers executing detainee operations at 
Guantanamo Bay, Cuba; has deployed 740 Soldiers to Joint Task Force--
Bravo at Soto Cano Airbase, Honduras; and is assisting the government 
of Colombia in its war on narco-terrorism. U.S. Special Operations 
Command's Army component provides professional, dedicated, and 
specially trained Soldiers to each Combatant Commander. These Soldiers, 
working closely with conventional forces, have been instrumental to our 
success in the Global War on Terrorism.
    In addition to federal missions, our Army National Guard (ARNG) 
plays an important domestic role, routinely responding to state 
emergencies. In fiscal year 2003, there were 280 requests for emergency 
support, ranging from basic human needs to engineering support during 
natural disasters. Our ARNG has fielded 32 Weapons of Mass Destruction 
(WMD) Civil Support Teams (CST), which assist first responders in the 
event of an incident. Another 12 CSTs are due to be activated within 18 
months. To date, these teams have responded to 74 different requests 
for support. Also, more than 8,000 ARNG Soldiers have executed critical 
force protection duties at 148 Air Force installations in CONUS.

            Resetting the Force
    The extraordinary demands major combat and stability operations in 
Afghanistan and Iraq are placing on our equipment and personnel require 
that our Army quickly reset returning units for future national 
security needs. The reset program will incorporate lessons learned from 
OIF and OEF, retrain essential tasks, adjust pre-positioned stocks of 
equipment and ammunition, and bring unit equipment readiness back to 
standard. The objective is to ensure our Army forces are ready to 
respond to near-term emerging threats and contingencies. However, reset 
cannot be viewed as a one-time event. Reset will continue to be key to 
our future readiness as our military executes our National Security 
missions.
    Through reset, all returning active duty and Army Reserve units 
will achieve a sufficient level of combat readiness within six to eight 
months of their arrival at home station. The Army National Guard will 
take longer to achieve the desired level of readiness. The goal for 
these units is to reestablish pre-deployment readiness within one year. 
Our Army also will take advantage of reset as an opportunity to 
reorganize units into modular designs that are more responsive to 
regional Combatant Commanders' needs; that better employ joint 
capabilities; that reduce deployment time; and that fight as self-
contained units in non-linear, non-contiguous battlespaces. This effort 
began with the 3rd Infantry Division and will soon be expanded to 
include the 101st Airborne Division (Air Assault).
    In addition to investing in new equipment to replace items that 
were destroyed or worn out during combat and stability operations, the 
reset program will repair major items used in OIF and OEF. Repair 
requirements have been determined for all OIF1 units and the workload 
for this comprehensive effort is immense: about 1,000 aviation systems; 
124,400 communications and electronics systems; 5,700 combat/tracked 
vehicles; 45,700 wheeled vehicles; 1,400 missile systems; nine Patriot 
battalions; and approximately 232,200 items from various other systems. 
This effort represents a significant expansion of normal maintenance 
activities, requiring the increased use of CONUS and OCONUS based 
depot, installation and commercial repair facilities.
    Reconfiguring existing Army pre-positioned stocks for global 
coverage of potential missions is a major component of the reset 
process. The intent is for each stock to have sufficient combat power 
to meet the immediate threat, as well as enough materials to render 
relief in other contingencies.
    Congressional support, in the form of supplemental appropriations, 
has been invaluable in beginning the reset effort. Our readiness 
depends directly on the successful execution of the reset program, and 
it will remain an ongoing priority for the foreseeable future. 
Continued resourcing will be needed to ensure that our Army can fight 
the current war and posture itself for future missions.

            Transformation: Moving From the Current to the Future Force
    The goals of Army Transformation are to provide relevant and ready 
forces that are organized, trained and equipped for full-spectrum 
joint, interagency and multi-national operations and to support Future 
Force development. Army Transformation occurs within the larger context 
of changes to the entire U.S. military. To support our Army staff in 
the execution of transformation, the Army leadership directed the 
establishment of an Army Training and Doctrine Command (TRADOC) Futures 
Center, operational as of October 2003.
    Our Current Force is organized, trained and equipped to conduct 
operations as part of the Joint Force. It provides the requisite 
decisive land power capabilities that the Joint Force commander needs 
across the range of military operations: support to civil authorities 
at home and abroad; expeditionary forces; the ability to reassure 
friends, allies and multinational partners; dissuading and deterring 
adversaries; decisively defeating adversaries should deterrence fail; 
and winning the peace as part of an integrated, inter-agency, post-
conflict effort.
    Our Future Force is the operational force the Army continuously 
seeks to become. Informed by National Security and Department of 
Defense guidance, it is a strategically responsive, networked, 
precision capabilities-based maneuver force that is dominant across the 
range of military operations envisioned for the future global security 
environment.
    As our Army develops the Future Force, it simultaneously is 
accelerating select future doctrine, organization, training, materiel, 
leadership, personnel, and facilities (DOTMLPF) capabilities into our 
Current Force. This process will be fundamental to our success in 
enhancing the relevance and readiness of our Army and prosecuting the 
Global War on Terrorism. Similarly, the operational experience of our 
Current Force directly informs the pursuit of Future Force 
capabilities.

            Balancing Current and Future Readiness
    Balancing risk between current and future readiness remains a 
critical part of our Army's transformation process and one that 
requires continual assessment to ensure that plans and programs are 
aligned with overall requirements. Without question, the issue of 
current operational readiness is our Army's highest priority. During 
the past several years, our Army made a conscious decision to accept a 
reasonable degree of risk to the readiness of our Current Force in 
order to permit investment in capabilities for our Future Force. This 
risk came in the form of reductions in and limitations to modernization 
and recapitalization programs. As part of the past four budget 
submissions, our Army made difficult choices to cancel and restructure 
programs, shifting resources to the development of transformational 
capabilities. Some of these investments have already produced results: 
for example, the new Stryker Brigade Combat Team formations now being 
fielded, the first of which is currently deployed on the battlefield in 
Iraq. Others are helping to develop emerging technologies and 
capabilities that will be applied to our force throughout the coming 
decade.
    Besides the ongoing efforts related to equipping the Current Force, 
our Army also has begun other major initiatives that will improve our 
readiness and relevance in the future. These include an effort to 
realign Active and Reserve Component units and capabilities, in order 
to make our Army more readily deployable and available to Joint Force 
Commanders; home-basing and Unit Focused Stability, which will improve 
readiness and reduce personnel turbulence; and the reorganization of 
Army units into more modular and capability-based organizations.
    While the previous decisions to accept reasonable risk in our 
Current Force were considered prudent at the time, the strategic and 
operational environment has significantly changed in light of the 
large-scale engagement of Army forces in Operation Iraqi Freedom and 
other expeditionary operations. Ever-changing demands on our force, 
coupled with our commitment to mitigating risk to our Soldiers, have 
necessitated re-examination and transformation of our Army's resource 
process and business practices (see Addendum H at www.Army.mil).

            Making the Resource Process More Responsive
    The resource process is our Army's center of gravity. Without the 
right people, the proper equipment, top-notch installations and 
adequate dollars to support all appropriately, our Army would not be 
able to fulfill its duty to our Nation.
    In order to maintain our premier warfighting capability, Army 
resource processes must be flexible, dynamic, transparent and 
responsive to both our requirements and those of the Joint Force. This 
is especially true in today's environment. We are at war against 
conventional and unconventional enemies, and simultaneously pursuing 
transformation. Our resource process must be transformed to allow us to 
keep pace with changes brought on by the enemy. Though we anticipate 
the battle against terrorism will last for years, possibly decades, we 
cannot program and budget in advance for that war. Our Army obviously 
cannot ignore our country's current security needs, yet it would be 
equally imprudent to deviate from the development and fielding of our 
Future Force. Balancing these requirements will be one of our toughest 
tasks.
    The GWOT requires a host of radical paradigm shifts in the way we 
view the face and nature of our global operating environment, as well 
as in the way that we conduct operations. Responsible yet creative 
stewardship of our resources will remain absolutely necessary. Internal 
controls must be tightened and waste eliminated; outsourcing non-core 
functions is still an important option. Risk will continue to be a 
factor and our resourcing decisions must take this into account.
    We must transform our resource processes and adjust our priorities 
to meet the challenge of the current strategic environment. Because we 
cannot mass-produce a volunteer Army, the retention of the right 
volunteer force is an imperative. This force is essential to the combat 
effectiveness of an increasingly complex and technologically 
sophisticated Army. We must refine and streamline the resource, 
acquisition, and fielding processes for equipment and supplies as we 
cannot make up for lost time in a crisis.

            Accelerated Acquisition and Fielding
    We have adapted and continue to improve our acquisition and 
fielding processes. In 2002, as Soldiers reported equipment shortages 
in Afghanistan and elsewhere, we implemented the Rapid Fielding 
Initiative (RFI) to ensure that all of our troops deploy with the 
latest available equipment. Equipment fielding schedules were revised 
to support unit rotation plans, and procurement and fielding cycles 
were radically compressed.
    In coordination with field commanders and our Soldiers, a list of 
more than 40 mission-essential items, including the Advanced Combat 
Helmet, close-combat optics, Global Positioning System receivers, 
Soldier intercoms and hydration systems, was identified for rapid 
fielding. Laying the foundation for acquisition transformation, RFI 
already has equipped nine brigade combat teams (BCTs). In fiscal year 
2004, RFI will upgrade a minimum of 18 BCTs and eight enhanced Separate 
Brigades, serving in OIF and OEF. Additionally, we are accelerating 
fielding of select future capabilities to our Current Force. These 
items include thermal weapon sights, enhanced night vision goggles, 
improved body armor, the Future Combat Rifle, and a new sniper rifle. 
Congressional support for regular budget and supplemental spending 
requests enables our Army to put this improved equipment in the hands 
of our Soldiers.
    With this support, our Army also has instituted a Rapid Equipping 
Force (REF) that works directly with operational commanders to find 
solutions to operational requirements. These solutions may be off-the-
shelf or near-term developmental items that can be made quickly 
available. For example, the REF established a coordinated effort to 
supply U.S. Forces with immediate solutions to counter improvised 
explosive device (IED) threats. Currently, IED teams are on location 
providing expertise and material solutions, to safeguard our Soldiers. 
We are acting aggressively to improve the armor protection of our 
armored and light-skinned vehicles. Other recent examples of REF 
products are the Well-Cam and PackBots. The Well-Cam is a camera, 
attached to an Ethernet cable and a laptop, that enabled Soldiers in 
Afghanistan to search wells for weapons caches. PackBots are 
operational robots used to clear caves, buildings, and compounds so 
Soldiers are not unnecessarily put in harm's way.
    RFI and REF provide timely support to our relevant and ready forces 
and to the Combatant Commanders, and facilitate Army Transformation.

            Balancing Our Active and Reserve Component Force Structure
    Currently, neither our Active nor Reserve Component is optimized 
for today's rapid deployability requirements. We will continue ongoing 
efforts to restructure our forces in order to mitigate stress; to align 
better with the current and projected security environments; and to 
offer campaign-quality land power capabilities to the Combatant 
Commanders. By doing so, we will ensure that our Army provides the 
responsiveness and depth required to achieve strategic and operational 
objectives, while simultaneously defending our homeland.
    Our Army is restructuring and rebalancing more than 100,000 
positions in our Active and Reserve Component force structure. These 
conversions increase the Active Component capabilities available to 
support the first 30 days of a rapid response operation. In response to 
Secretary of Defense guidance, we have already completed approximately 
10,000 positions. For example, the Army National Guard provisionally 
organized 18 additional military police (MP) companies. Between fiscal 
year 2004 and fiscal year 2009, our Army will divest approximately 
19,500 positions of less frequently used Active and Reserve Component 
force structure to further resource critical high demand units such as 
military police, civil affairs, and special operations forces. We 
project that future rebalancing efforts will convert an additional 
80,000 positions of lower-priority force structure. Despite these 
changes, our Army will remain stressed to meet anticipated 
requirements. To ensure that our Army can fulfill its commitment to our 
Nation, we should have the force capability level required to 
facilitate rebalancing, resetting, restructuring, and transforming of 
the Army.
    Military-to-civilian conversions are another way to improve 
manpower efficiency. More military personnel will fill the operational 
force if they are moved out of positions that can be prudently 
performed by civilians. To improve the Army's ability to better support 
worldwide commitments, it is essential to start this process now.
    Our Reserve Component relies heavily on Full-Time-Support (FTS) 
personnel to sustain support of current contingencies while 
restructuring the force. FTS personnel perform the vital, day-to-day 
organizational, administrative, training and maintenance activities 
that ensure the highest level of Soldier and unit readiness. To 
guarantee that our Army's Reserve Component will continue to fulfill 
ever-increasing demands with trained and ready units, our Army plans to 
raise FTS authorizations by 15 percent, from the current level of 
71,928 to 85,840, by fiscal year 2012. In 2003, the Army Reserve began 
implementation of the Federal Reserve Restructuring Initiative. The 
goal is to better meet contingency requirements and to improve unit 
readiness.

            Achieving Greater Combat Capability With Modular, 
                    Capabilities-based Unit Designs
    Modular units are interchangeable, scalable, and tailorable 
formations, which provide the Joint Force Commander with a 
strategically responsive force that greatly increases his ability to 
defeat any adversary. Modularity enables us to tailor our capabilities 
to the requirements of the situation and delivered at the right time 
and the right place. Modularity permits the Combatant Commander to 
optimize his warfighting tool set.
    Moving toward independent, echelon-above-brigade headquarters will 
enhance modularity. In accordance with our Unit of Employment (UE) 
construct, a UE will provide the command-and-control structure into 
which modular, capabilities-based Units of Action (UA) are organized to 
meet Combatant Commander requirements. These UAs will incorporate 
essential maintenance, intelligence, and communications functions 
previously provided by higher level organizations. Our UE headquarters, 
while able to accept joint capabilities such as a Standing Joint Force 
Headquarters element, will have an organic capability, depending on the 
contingency, to function as a Joint Task Force or Joint Force Land 
Component Command headquarters like we have already done in Afghanistan 
and Iraq.

            Force Stabilization
    The great demands placed on our Army have forced us to re-examine 
many of our long-standing personnel and basing practices. As a result, 
our Army is transitioning to an improved manning system, designed to 
augment unit readiness by increasing stability and predictability for 
commanders, Soldiers and families. Force Stabilization will allow 
Reserve Component Soldiers to plan for their deployments while 
supporting their civilian jobs and their community commitments. It 
places greater emphasis on building and sustaining cohesive, 
deployable, combat-ready forces for Combatant Commanders.
    The home-basing initiative keeps our Soldiers in their assignments 
at specific installations longer, thus reducing unit turbulence and 
increasing unit cohesion. Unit Focused Stability synchronizes our 
Soldiers' assignments to their units' operational cycle, providing a 
more capable, deployable and prepared unit.

            Installations as Our Flagships
    Our installations are an essential component in maintaining the 
premier Army in the world. For the warfighter, installations are the 
platforms from which we project military power. Our installations 
perform the following key missions: (1) provide effective training 
facilities; (2) rapidly mobilize and deploy the force; (3) provide 
reachback capabilities; (4) sustain and reconstitute the force; and (5) 
care for our families. As power projection platforms, our installations 
must be equipped with a robust information infrastructure that gives 
the deployed commander quick and efficient reach-back capabilities. All 
of these missions help to maintain our Army's deployability and 
fighting edge.
    Historically, we have accepted risk in our infrastructure and 
installation services in order to maintain our current readiness. The 
cumulative effect on our installations is that commanders rate more 
than 50 percent of our facilities as ``adversely affecting mission and 
training requirements.'' We have adjusted our management processes to 
be more effective stewards of our resources. In 2002, we established 
the Installation Management Agency (IMA) to create a corporate-focused 
structure that provides efficient installation management worldwide. 
The IMA uses creative management programs to sustain quality 
installations and maintain the well-being of the entire Army family.
    The Installation Information Infrastructure Modernization Program 
(I\3\MP) enhances the installation's role in power projection and 
provides the architecture to address the essential reach-back 
requirement. Additionally, our Installation Sustainability Plan 
addresses ways to fulfill environmental requirements without impacting 
current or future training. Other important progress include 
modernization of barracks and housing; a Residential Communities 
Initiative; and divestiture of redundant facilities infrastructure and 
non-core utility systems through privatization.
    In the past few years, the administration and Congress have helped 
us to begin addressing our infrastructure challenges. We requested 94 
percent of funding required for sustainment of installations in fiscal 
year 2004. We have made progress in improving our installations by 
adjusting existing programs and developing new management strategies. 
However, there is much still left to do in order to upgrade our 
installations to better support the mission, Soldiers, and our 
families.

            Army Families and Well Being
    People are the heart and soul of the Army--Soldiers, civilians, 
family members, and retirees. Our readiness is inextricably linked to 
the well being of our people. The Army Family, for both the Active and 
Reserve Component, is a force multiplier and provides the foundation to 
sustain our warrior culture. We have placed significant emphasis on our 
Reserve Component this year in recognition of their contributions to 
the Global War on Terrorism. With the help of the administration and 
Congress, many improvements have been made including the retention and 
increase of Imminent Danger Pay, Family Separation Allowance, and a 
sizable pay raise. Other key well-being initiatives include the Spousal 
Employment Partnership, new TRICARE policies for the reserve 
components, and improvements in barracks and family housing. For more 
information on other Army well-being initiatives, see Addendum D 
(available at www.Army.mil)

            Introducing New Capabilities Into Current Force
    While at war, the urgency to accelerate the development and 
fielding of new and enhanced capabilities to our fighting forces in the 
field has never been greater. Our Army is making significant strides in 
this regard with the employment of a new brigade combat team 
organization, equipped with the latest available technology, to provide 
the Combatant Commander with enhanced warfighting capabilities. The 
rapid fielding of the Stryker vehicle demonstrates our Army's ability 
to use the acquisition and resource processes to meet a Combatant 
Commander's urgent needs.

                Stryker Brigade Combat Team (SBCT)
    In 2003, our Army deployed our first SBCT, the 3rd Brigade, 2nd 
Infantry Division, to Operation Iraqi Freedom, delivering its enhanced 
capability to the Joint Force in record time: four years from broad 
concept to deployment. Exceptional support from Congress and the Office 
of the Secretary of Defense, along with close collaboration between the 
Army and industry, made this achievement possible.
    Stryker brigades are our Army's first truly network-centric force, 
filling the capability gap between light- and heavy-force units with an 
infantry-rich, mobile force that is strategically responsive, 
tactically agile, and more lethal. Improved battlespace awareness and 
battle-command technologies embedded in our SBCTs enhance combat 
effectiveness and survivability by integrating data from manned and 
unmanned air and ground-based sensors and providing real-time, 
continuous situational understanding. Planned enhancements will 
incorporate still-developing technologies. Significantly, our SBCTs 
will improve our Army's understanding of Future Force processes, 
helping us to formulate an advanced warfighting doctrine that will 
serve as an important bridge to the development of our Unit of Action, 
the structural foundation of our Future Force.
    This spring, our second SBCT at Fort Lewis, Washington, will become 
operational. Our third SBCT, in Alaska, will be available in 2005. 
Continued OSD and congressional support will ensure that subsequent 
brigades in Hawaii, Louisiana, and Pennsylvania, are fielded between 
2004 and 2008.

                Future Capabilities
    Our Army plans to field a number of systems this decade that will 
provide a foundation for informing the transformation of our Current 
Force capabilities into those needed by our Future Force. Once fielded, 
these systems will perform as interdependent systems of systems and 
will greatly enhance joint warfighting capabilities. Our future 
capabilities programs are designed to enhance the campaign-quality 
land-power capabilities that we provide to the Combatant Commanders. 
Our programs undergo continuous reviews to ensure they meet the 
capability requirements of the Joint Force. When required, we 
restructure programs, revise requirements and reprogram resources. The 
following are just a few of the key transformational systems our Army 
will begin to field during the next six years:
    The Network.--Our Future Force situational dominance will depend 
upon a comprehensive, ubiquitous, and joint-interoperable Command, 
Control, Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C\4\ISR) architecture (the Network) that enables the 
Joint Force Commander to conduct fully interdependent and network-
centric warfare. The Network will provide the backbone of our Future 
Force and the future Joint Force, enabling the maneuver commander to 
effectively coordinate battlefield effects. Some of the more important 
systems within our Network include:
  --Warfighter Information Network--Tactical (WIN-T).--WIN-T will be 
        the communications network of our Future Force, optimized for 
        offensive and joint operations, while providing the Combatant 
        Commander the capability to perform multiple missions 
        simultaneously.
  --Joint Tactical Radio System (JTRS).--JTRS is a family of common, 
        software-defined, programmable radios that will become our 
        Army's primary tactical radio for mobile communications.
  --Distributed Common Ground System--Army (DCGS-A).--DCGS-A is a 
        single, integrated, ground-based, ISR processing system 
        composed of joint, common hardware and software components and 
        is part of the DOD DCGS family of systems.
  --Aerial Common Sensor (ACS).--This ISR system and platform will use 
        robust sensor-to-shooter and reach links, (such as DCGS-A 
        ground stations), to provide commanders at every echelon the 
        tailored, multi-sensor intelligence required for joint 
        operations.
    Future Combat Systems (FCS).--By extending the network capabilities 
into the Unit of Action, the FCS provide a system of systems capability 
that was not previously available to Soldiers and commanders in joint 
operations. The core of our Future Force's maneuver Unit of Action is 
the Future Combat Systems, comprised of 18 manned and unmanned 
platforms that are centered around the Soldier and integrated within a 
C\4\ISR network. FCS will provide our Soldiers greatly enhanced 
situational awareness, enabling them to see first, understand first, 
act first and finish decisively. Our FCS platforms will offer the Joint 
Force networked, lethal direct fire; indirect fire; air defense; 
complementary non-lethal fires and effects; and troop transport 
capability. In May 2003, FCS moved, on schedule, into the System 
Development and Demonstration phase. Our Army is aggressively managing 
our FCS development effort and intends to achieve initial operational 
capability by the end of the decade.

                Army Science and Technology
    The Army Science and Technology (S&T) Program provides our Army 
superiority in both human and materiel systems arenas--preventing 
technological surprise. The Army S&T program retains a dynamic 
portfolio of investments that are responsive to warfighter needs today 
and into the future. The priority for Army S&T is to pursue paradigm-
shifting technologies that can alter the nature of the military 
competition to our advantage in the future and, where feasible, to 
exploit opportunities to accelerate the transition of proven 
technologies to our Current Force.
    The Army S&T program exploits technology developments from the 
other services, defense agencies and commercial industry as well as 
international communities. The S&T program focuses on technology 
relevant to our Army and joint capabilities. It synchronizes 
operational concepts development and acquisition programs through 
transformational business practices that speed technology fielding to 
the Soldier. The Army's S&T program is balanced to satisfy the high 
payoff needs of the future force while seeking rapid transitions for 
critical capabilities to our Current Force.

            Joint Operational Concepts (JOPSC)
    The Joint Force has transitioned from independent, de-conflicted 
operations to sustained interoperability. It must now shift rapidly to 
joint interdependence. To that end, we are reviewing training 
requirements, traditional relationships and developmental and 
institutional programs. This process includes ensuring that our 
operational concepts are nested inside those employed by the Joint 
Force. The concepts and initiatives listed below discuss particular 
Army emphasis areas; these areas are not all-inclusive. Functional 
concepts and other Army initiatives that support the JOpsC are 
discussed in detail in Addendum J (available at www.Army.mil).

                Actionable Intelligence
    Our Army also is focused on attaining actionable intelligence--
intelligence that provides situational understanding to commanders and 
Soldiers with the speed, accuracy and confidence necessary to influence 
favorably current and future operations. Actionable intelligence 
achieves its intended purpose of empowering greater individual 
initiative and self-synchronization among tactical units by fusing 
information across organizations and echelons--accelerating the speed 
of decision-making and the agility of operations.

                Focused Logistics
    Our Army's current actions around the world in support of the 
Global War on Terrorism present a view of future military operations 
and provide valuable insights as we transform our logistics systems 
from the Current to the Future Force. The successes enjoyed during OIF 
were the result of the integrated logistics team of Soldiers, civilians 
and contractors, all of whom developed innovative solutions to a range 
of challenges caused by four major capability gaps in the current 
logistics system. To sustain combat power, our Army must have the 
ability to ``see the requirements'' on-demand through a logistics data 
network. We require a responsive distribution system, enabled by in-
transit and total-asset visibility and managed by a single owner who 
has positive end-to-end control in the theater. Our Army needs a 
robust, modular, force-reception capability--a dedicated and trained 
organization able to quickly open a theater and support continuous 
sustainment throughout the joint operations area. Lastly, we need an 
integrated supply chain that has a single proponent, who can reach 
across the breadth and depth of resources in a joint, interagency and 
multinational theater. As we move from the Current Force to the Future 
Force, we will build confidence in the minds of the Combatant 
Commanders by delivering sustainment on time, every time.

                       A COMMITMENT TO OUR NATION

    Our Nation and our Army are engaged in a Global War on Terrorism--a 
war of survival against an insidious and cruel enemy that threatens our 
civilization and our way of life. This enemy is actively targeting the 
interests of America and our allies, both within our own country and 
abroad.
    Defeating this enemy requires the continued, strong support of our 
Nation. The steadfastness of our Nation in this effort is readily 
apparent. Ordinary Americans are doing their part and will continue to 
do so. Congressional support for our troops has been critical to our 
success. The industrial base also has responded, accelerating 
production of items essential to our Soldiers' protection and 
warfighting ability.
    Our Army, too, remains committed to its heritage of preserving 
freedom. American Soldiers display unrelenting tenacity, steadfast 
purpose, quiet confidence and selfless heroism. For America to survive 
and flourish throughout the 21st Century, our Army must defeat 
decisively the threats that challenge us today. To accomplish this 
essential task, we must recognize some important truths.
  --The fight against terror will be a long one.
  --Our Army must simultaneously deter aggression, defeat the forces of 
        international terrorism, and maintain our campaign qualities.
  --We must continue to modernize to meet the challenges of our future.
  --Our operational tempo is high and will remain so.
  --Sustained operations and deployments will be the norm for our 
        Soldiers--NOT the exception.
  --Old rules and operational methods may no longer apply; we will not 
        achieve victory with a business-as-usual approach.
    Congressional backing for reset, our continued transformation to 
the Future Force, our rebalancing and restructuring of the Active and 
Reserve Component, and improvements to our installation infrastructure 
is essential to continued mission readiness. We fully appreciate the 
exceptional support Members and their staffs provided this past year. 
The support of the American people and their elected representatives in 
the United States Congress is essential.
    Our Army's commitment to the future is certain. We will continue to 
provide our Nation, the President, the Secretary of Defense and the 
Combatant Commanders a unique set of core competencies and 
capabilities. We remain dedicated to training and equipping our 
Soldiers and growing leaders. We will continue to deliver relevant and 
ready land power to the Combatant Commanders and the Joint Force. We 
will protect our country and our way of life as we have for 228 years. 
It is our privilege, our duty, and our honor to do so.

    Senator Stevens. Our co-chairman has arrived. Senator 
Inouye, do you have an opening statement?

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Thank you very much, Mr. Chairman. I do, 
and I ask that my full statement be made part of the record. 
But before I do, I would like to join you in welcoming General 
Schoomaker and the Secretary of the Army, because this is their 
first time before us. I can assure you that it will be--I will 
not say a happy time, but we are good people.
    I would like to join my chairman in expressing our 
admiration and our gratitude to the men and women who have 
stood in harm's way in our behalf since 9/11. I commend 
everyone who has played an important role in these operations. 
Time and time again, the extraordinary ability of our men and 
women in uniform and all the people who work to support them 
has been demonstrated. I can speak for everyone here: We are 
extremely proud of our fellow Americans.
    Thank you very much, sir.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Secretary Brownlee and General Peter J. Schoomaker, I would 
like to welcome you both for your first appearance before this 
subcommittee. It is an honor to have you here and I look 
forward to your testimony.
    It has been over two years since the United States 
responded to the 9/11 attack with the Global War on Terrorism. 
I commend everyone that has played a role in these operations. 
Time and time again, the extraordinary ability of our men and 
women in uniform and all the people that work to support them 
has been demonstrated.
    However, these ongoing operations have strained our troops. 
Numerous concerns such as recruiting and retention, and force 
structure requirements have been raised in Congress and by our 
military forces in the field.
    I suspect that these concerns will again be the subject of 
debate in Congress, as they are continually brought up by 
service members, their families, and the public. With ongoing 
operations for the Global War on Terrorism and our struggling 
effort to fund domestic priorities as well, this Committee has 
a very difficult road ahead.
    I am pleased that the Army is responding to the stress of 
overseas deployments by temporarily increasing end strength by 
30,000. Last year during the fiscal year 2004 Army budget 
hearing, this subcommittee raised the subject of Army end 
strength. General Shinseki testified that the requirements of 
the Army demanded a change in right-sizing and right-mixing the 
Army between Active and Reserve components. General Schoomaker, 
I commend you for responding to this issue.
    I look forward to discussing the details of this plan, its 
funding and what you see as the long term future of Army force 
structure.
    I would also be interested to learn how you plan to ramp up 
and then decrease the force within a few short years.
    Part of the strain on our forces has led to our concern 
over recruiting and retention, especially for the Guard and 
Reserve. Ongoing deployments and the use of stop loss have 
placed enormous demands on our military personnel and their 
families.
    I understand the Army is currently meeting goals for the 
active component but is slightly short on the reserve 
component. I would like to know your plan to address these 
concerns this year and in fiscal year 2005.
    The Army faces an unknown future, largely depending on how 
things progress in Afghanistan and Iraq. Your task is to plan 
for a schedule that is as yet undetermined, while working to 
reset the force for another contingency.
    To complicate this further, this will take place within the 
constraints of a difficult fiscal year and with supplemental 
funds coming later than you might hope.
    Gentlemen, I must say the challenges facing you are great, 
but I have every confidence in your ability to succeed. 
Secretary Brownlee, General Peter J. Schoomaker, I look forward 
to exploring these issues today and hearing your responses.

    Senator Stevens. Thank you, Senator.
    General Schoomaker, do you have a comment to make?
    General Schoomaker. Sir, I would like to make just a few 
brief comments if I might. Chairman Stevens, Senator Inouye: 
thank you very much for the opportunity to join Secretary 
Brownlee before you today and talk about our great Army.
    I would like to reciprocate and recognize the great service 
of Secretary Brownlee as Acting Secretary of the Army. He had a 
very distinguished military career of his own--two tours in 
Vietnam, wounded, recognized and awarded for valor on the 
battlefield, and of course you are all aware that he also 
served with distinction here as a staffer in this body, in the 
Senate. He certainly is a great partner as we go forward with 
the great challenges that we have before us, as we transform 
the Army while we are engaged in the global war on terrorism 
and engaged all over the world.
    I would also like to recognize Lieutenant General Ron 
Helmly with us today from the--he heads the U.S. Army Reserve; 
and Lieutenant General Roger Schultz, to my left rear, who 
heads the Army National Guard. We are one, we are a total Army, 
we are together. There is no daylight between us in what we are 
trying to achieve here, and I think you will see as we talk 
about what we are doing that we are approaching this as a 
unified body moving forward to the 21st century.
    I would also like to recognize the great pride I have in 
being able to serve once again in uniform with the men and 
women of the United States Army, and this includes their 
families, it includes the great civilians that we have, that do 
so much to support our Army at war.
    Finally, I would like to reinforce something that Secretary 
Brownlee has said, and that is that we are moving out with a 
great deal of vigor and momentum and we are trying to take 
advantage of the silver lining in this cloud of worldwide 
operations and being at war. We are trying to transform the 
Army using the momentum of the Army as we reset for continuous 
operations, that we do not reset it to the Army it was before, 
but we reset it to the Army of the future.
    We see this as an extraordinary window of opportunity, to 
take advantage not only of the great resources that this 
Congress and this committee has provided to our Army, but also 
take advantage of the motion that the Army is in. It is a 
narrow window of opportunity and perhaps one of my greatest 
fears is that we do not take full opportunity here of this 
window and allow ourselves to come to rest and not complete the 
transformation that we feel is so necessary.
    We have taken some extraordinary steps and one of them, of 
course, is as we looked at Army aviation we found a solution in 
the fact of terminating Comanche. I can assure you we did not 
start out with an attitude to terminate Comanche, but it made 
such sense from a business position as being a fiscally 
responsible thing to do, and also that the operational traits 
made so much sense.
    I would ask your support for these kinds of initiatives to 
ensure that the commitment that we were able to obtain from the 
Secretary of Defense, from the White House, and from the Office 
of Management and Budget (OMB) that these resources would be 
committed to fixing Army aviation as we do it. I would tell you 
that in this particular case it is not just the extraordinary 
number of helicopters we are going to buy and the amount of 
upgrades and modernization that we are going to do with our 
existing fleet, but it also includes the military construction 
(MILCON), it includes fixing the ammunition like rockets and 
the Hellfire issue, which is a great concern to me, the 
simulators, the training base, the unmanned aerial vehicles 
(UAV's), and the future tech base for a future joint rotorcraft 
solution for 2020-2025.
    So it is a far-reaching approach that we are taking, and I 
would very much appreciate your support with this, because I 
know that there is a great deal of interest in how we are going 
to accomplish all of this.
    Having said that, sir, I stand with the Secretary of the 
Army here in his statement and we have submitted our posture 
statement for the record, and I look forward to your questions. 
Thank you.
    Senator Stevens. Well, thank you very much.
    We anticipate approximately 10 members coming to join in 
this hearing, so unless there is objection we will limit the 
original round to 5 minutes apiece.
    I want to start off by congratulating the two of you for 
the Comanche decision. This committee had to make a decision 
once before, a similar decision on the Sergeant York. You have 
made the decision I think clearly and with a succinct 
statement, so from my point of view I intend to support your 
efforts and will honor the commitments that have been made that 
the funds that will be redirected from the Comanche will stay 
within Army aviation, where the need is very great.
    But can you tell us, is there going to be a gap now in Army 
helicopter procurement because of this?
    General Schoomaker. Sir, the answer is no. In fact, as you 
know, we were not going to achieve delivery of Comanche until 
later within this future years defense program. There were 121 
Comanches in the program at the time. The counterbalance is 
that we are going to be significantly upgrading the current 
fleet, bringing for instance Apache up to Block 3, which gives 
us the same capability, with the exception of low 
observability, as Comanche Block 1 was going to provide us.
    What in effect we are doing, I believe we will achieve a 
greater industrial base capacity that in effect is going to 
give us very positive results on our readiness in the aviation 
fleet. So we see this as a win-win situation all the way across 
and I think it will give us immediate assistance here in 
maintaining the readiness of our aviation.
    Senator Stevens. Well, I am going to ask your cooperation 
by having a classified session on the total subject of the 
helicopter transition at a later date, because I think some of 
the questions might not be appropriate in an open session.

                           ARMY END STRENGTH

    We discussed informally the question of what is going to 
happen to the increased strength you have now and your plans 
for forming separate brigades from those and transitioning them 
into the regular Army as you downsize other units. Could you 
explain that for us here this morning?
    Mr. Brownlee. Sir, I might let Pete start out with what we 
need to do and then I could pick up and explain some of the how 
for that.
    Senator Stevens. Yes, please.
    General Schoomaker. Sir, thank you very much. This is a 
total Army switch to modularity, and what we are talking about 
doing is maintaining 10 divisions on the Active Force and 8 
divisions in the National Guard, for a total of 18 division 
battle command headquarters. We then want to expand the number 
of brigades. On the Active Army side we want to go from 33 
active brigades that we currently have to a minimum of 43. That 
is an increase of 30 percent, with the possibility of going to 
48. We have an off-ramp at 2006 to make that decision, to see 
how we are doing and what the affordability is.
    But we believe that by going from 33 to 43 brigades, which 
is the equivalent of almost 3 divisions of fighting strength 
within the 10-division formation, that it will help us greatly.
    At the same time, we are going to be transforming the Army 
National Guard under its 8 division headquarters to 34 brigade-
sized units. This in effect gives us an Army of somewhere 
between 77 and 82 brigade combat teams, which is in fact the 
answer to relieving the stress to the force. This gives us a 
broader base, that we get greater dwell time between 
deployments and rotations. We believe that we can do this 
within the current authorized statutory end strength numbers.
    We have asked for a temporary growth, not in statutory end 
strength, but a temporary growth in the Army under the 
authorities that the President has in Title 10, that the law 
gives him, for us not to use stop-loss, stop-move to grow the 
Army, but to actually be able to recruit, train, and organize 
through the pipeline on a temporary basis this additional 
30,000 soldiers to create these brigades.
    Simultaneously, we believe that we can find efficiencies 
through some of the global force reposturing, military to 
civilian conversions, and other efficiencies that we have had 
that will offset that temporary growth so that we can let the 
air out of the tires and come back down to our end strength, 
retaining the brigades that we form.
    I will let Secretary Brownlee discuss the specifics of 
that.
    Mr. Brownlee. Sir, I know there has been some discussion 
over here about how we had proposed this. When we look 
carefully at what we need to do and the authority to do it, 
there clearly is an authority that the Congress intended for 
peacetime, which was authorized end strength. There is another 
authority in Title 10 that allows the President to waive the 
requirements of the end strength and grow the force to whatever 
is necessary to deal with the emergency.
    Since the President had declared an emergency, we looked 
and we were already some 20,000 people over our authorized end 
strength under this Title 10 authority. We then asked 
ourselves: Well, how are we paying for that additional end 
strength? We were in fact paying for it with the supplemental 
appropriations provided by the Congress for those purposes.
    So what we have proposed is to allow us, as Pete described, 
to grow by up to 30,000 over the next several years and to use 
this to create these new brigades. It gives us additional head 
space to do some of the efficiencies that will be very 
difficult or impossible to do if we did not have this extra 
growth and flexibility.
    During this period of time our strategy is to find within 
the Army these 30,000 spaces. So at the end of the conflict, 
whenever that is, and as Pete says when the conflict comes down 
and we let the air out of the tires, we can keep those 
brigades, but at the authorized end strength we currently have. 
That is our plan, that is our strategy.
    As we looked at this, it was clearly better for us because 
if we had to put this in our budget request and ask you to 
increase our authorized end strength by 30,000 people, it is 
about $1.2 billion per 10,000, so that is about $3.6 billion we 
would have to put in our budget and knock out other programs to 
pay for it. We then have to go through our future years defense 
plan and knock it out every year in there also. So we would be 
taking that out of programs that we are very interested in and 
you have helped us greatly with to modernize the Army.
    In fact, I know because I worked here and deal with some of 
the same problems you do, if it were done over here, if you had 
to go into the budget and find $3.5 billion of military 
personnel money, that money pays out at a one for one rate over 
90 percent and most of the other accounts that you would 
actually be using as a source for funds pay out at a much lower 
rate. So you would have to take a much larger proportion out of 
those accounts to pay for these military personnel costs. You 
might have to find as much as $7 to $10 billion or even more 
out of these other accounts to pay for it.
    So as we looked at this, we thought it was clearly better 
for us and hopefully you would see it as better for the 
Congress in dealing with this situation.
    Senator Burns. Secretary Brownlee, can you turn your 
microphone on?
    Mr. Brownlee. I am sorry. I apologize, sir. I hope that 
came across.
    Senator Stevens. I just thought my ears were acting up 
again.
    Senator Burns. I thought I had gone deaf.
    Mr. Brownlee. Sir, as one with very bad ones I should know 
better. I apologize.
    Senator Stevens. Well, I appreciate that. I do hope we can 
keep the responses a little more succinct so that we can have 
more than one question per Senator.
    But one thing I failed to do--would you identify for the 
record the general officers that have come with you, General 
Schoomaker? I think sometimes we fail to recognize they are 
here for your support. So I would like to have in the record 
who is here.
    General Schoomaker. Sir, I recognized Lieutenant General 
Ron Helmly from the Army Reserve and Lieutenant General Roger 
Schultz on the far left from the Army National Guard. General 
Helmly is sitting right here in the middle. Lieutenant General 
Jerry Sinn, who is out of our budget office. He is our counsel 
on money, a very good one. And I think you know General Guy 
Swan behind us, who is our legislative liaison.
    Senator Stevens. Thank you very much.
    Senator Inouye.
    Senator Inouye. If I may follow up on the chairman's 
question, are the new brigades going to be a permanent part of 
the force?
    General Schoomaker. Yes, sir.
    Senator Inouye. I recall Dr. Zakheim indicated that these 
new brigades will be phased out after the war in Iraq. Is that 
correct?
    General Schoomaker. No, sir. The 30,000 temporary end 
strength will be phased out after the emergency and they will 
be offset by the efficiencies we find within our current 
statutory end strength during the period that we are doing this 
transformation.
    Senator Inouye. But not the new brigades?
    General Schoomaker. No, sir. They stay, they remain.

                        RECRUITING AND RETENTION

    Senator Inouye. Secretary and General, with the strain of 
our deployed forces there is some concern among many about 
recruiting and retaining, and I suppose that should be a 
concern of all of us. Are you confident that you can meet your 
goals without changing any standards in recruiting or 
retention?
    General Schoomaker. Yes, sir.
    Mr. Brownlee. Right now, sir, I would describe as 
cautiously optimistic where we are on all of this. We certainly 
are concerned within the Army because we do have a very high 
OPTEMPO. The Army is very busy. This impacts on soldiers and 
their families. Right now with respect to recruiting, we are 
confident that we are going to make our goals. We are running a 
little below the line in some of them, but for most of them it 
looks like we are going to make all our fiscal year 2004 
requirements.
    We have some concerns in retention in some spots, but in 
other areas we are doing very well. So we are going to 
concentrate on those. We have a lot of authority that has been 
provided by the Congress to take certain measures to allow us 
to provide incentives, which we will do when it appears time to 
do that. We have already used some of them on reenlistment 
bonuses and other authorities that have been provided for those 
things.
    General Schoomaker. Sir, I would like to add very briefly. 
We were extraordinarily successful last year in meeting over 
100 percent of our retention and recruiting goals across all 
components. This year it looks like we are on track right now 
to exceed 100 percent in recruiting across the components. We 
do have a few retention challenges, but everybody is very 
confident that we will make it.

                        BRIGADE UNITS OF ACTION

    But I would like to make a very strong comment here that we 
must relieve the stress on this force, and we believe our plan 
is designed to do that, because we cannot rely on this 
extraordinary level of commitment, sacrifice, and patriotism to 
carry us at the level that we are currently operating. That is 
why I feel it is so important that we use this extraordinary 
window of opportunity to transform this Army to a broader 
brigade base, to be able to achieve the kind of dwell time.
    We anticipate we will be able to create a force that will 
be able to sustain this level of effort we have today with an 
Active Force rotation scheme of 1 year in three and with the 
Reserve Components 1 year in five or six, which we think is 
sustainable.
    Senator Inouye. I realize that the matter of policy is not 
within your jurisdiction, but, like all of us, you read the 
papers, you receive briefings and such. And there are potential 
hot spots throughout the world--the Korean Peninsula, 
Indonesia, Malacca Straits, the Middle East, just to name a 
few, Pakistan, India. Are you considering expanding the 
military if we find ourselves having to involve ourselves in 
all these activities?
    Mr. Brownlee. Sir, as I indicated, the plans that we have 
within the Army are to increase the number of combat brigades. 
That will give us an additional capability in case we have to 
respond to something else. Our primary intent right now is, as 
General Schoomaker said, to relieve the stress, current stress 
on the force. If there is another emergency elsewhere, this 
clearly would give us more capability and flexibility in 
responding to that.
    General Schoomaker. I think again, just as a baseline, 
today we have 33 brigades in the Active Force and we have 15 
enhanced separate brigades in the National Guard that we 
consider available and ready to go in a rapid way. If we 
complete our transformation, we could have as many as 82 
brigades available to us in real combat power within our 
current statutory end strength.
    This is what this transformation has taken us to. It will 
be between 77 and 82 brigade combat teams across the Army 
active component and National Guard.
    Senator Inouye. You can have 82 brigades without changing 
the end strength?
    General Schoomaker. That is correct, sir.
    Senator Inouye. Thank you, sir.
    Senator Stevens. Senator Shelby.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.

                             ARMY AVIATION

    Secretary Brownlee, regarding the Comanche program, I 
believe that is the right way to go. What about the OSD and 
White House commitment here? Are they committed to Army 
aviation in the future, which I think is very important, that 
this savings be spent there. I think General Schoomaker 
referenced that clearly. Do you want to comment on that? Go 
ahead, General.
    General Schoomaker. I personally received the commitment of 
Deputy Secretary of Defense Wolfowitz. I met in the Oval Office 
with the President and achieved his commitment, and we met with 
Josh Bolton in OMB and received their concurrence and 
commitment that we would apply the Comanche program $14.6 
billion to Army aviation.
    Senator Shelby. It is very important to the future of the 
Army, is it not?
    General Schoomaker. Yes, sir.

                                 RESET

    Senator Shelby. The Army reset program, General Schoomaker. 
A lot of us are concerned about the health of the Army's combat 
equipment. We have talked about this before, especially combat 
vehicles, with what has been going on in Iraq. $1.5 billion was 
included in the supplemental last year for the Army depot 
maintenance. Yet we understand that the Army Tank and 
Automotive Command currently has a backlog of roughly the same 
amount.
    How much funding has the Army received from the 2004 
supplemental for reset? What is the readiness level of the 
units that have returned and units still deployed in Iraq?
    Mr. Brownlee. I want to do that for the record, provide for 
the record the exact amount of funding we received out of the 
supplemental for resetting the force. But we do have funds to 
recapitalize, reset, all of the major systems that we have 
brought back right now, I believe, and we are proceeding to do 
that.
    [The information follows:]

                                 Reset

    The fiscal year 2004 emergency supplemental funded $1.2 
billion in depot maintenance requirements and $2.0 billion in 
10/20 level maintenance and delayed desert damage. 
Additionally, we received another $208 million for 
transportation to move equipment to the depots and to 
commercialize some in-theater communications capability. This 
was particularly important in that it permitted us to redeploy 
several of the Army's unique communications units who were 
approaching their one-year mark for deployment. We also 
received $712 million in investment funds to purchase 
communications equipment, replacement stocks for our 
prepositioned equipment sets, and lethality and survivability 
equipment for both Active and Reserve Component Soldiers.

    Senator Shelby. But you have got to have sufficient 
resources to reset. General?
    General Schoomaker. Sir, you are exactly right. I am again, 
with the same people, both the Secretary and I are on the 
record. We are going to require supplemental funding to reset 
the Army 2 years beyond the end of this emergency, which is 
consistent with what it took us to reset the Army following 
Desert Shield/Desert Storm. We have over 9,000 pieces of 
rolling stock, 9,000 pieces of rolling stock that were used and 
consumed and require repair, just from the Operation Iraqi 
Freedom 1 (OIF-1), from the war.
    Senator Shelby. We have got to get that to the depots, have 
we not?
    General Schoomaker. Yes, sir. That is who is going to have 
to do this work. Some of it is going to have to be done 
forward, some of it is going to have to be done here.

                            CALIBRATION SETS

    Senator Shelby. General Schoomaker, regarding test, 
measurement and diagnostic equipment, not very much attention 
gets paid to test, measurement, and diagnostic equipment, but I 
would like to express concern about the Army's action in this 
bill to decrease the research, development, test and evaluation 
(RDT&E) funding for calibration sets equipment by 275 percent 
and to zero all procurement funding.
    The loss of this funding for calibration sets (CALSETS) 
2000 a lot of people believe negatively impacts two 
transformation imperatives that are important to you, 
modularity and commonality. Do you have enough calibration sets 
in the force to meet immediate requirements? In other words, 
what are we going to do here?
    General Schoomaker. Sir, I believe we do, but we would need 
to provide that for the record, unless the Secretary knows.
    [The information follows:]

                 Calibration Sets (CALSET) Requirements

    Army is meeting immediate critical calibration 
requirements; however, it is assuming some near and long term 
modernization risk. We are satisfying immediate critical 
requirements for CALSETS 2000. CALSETS 2000 is a modernized, 
tactical, deployable mobility platform with mounted calibration 
and repair capability. The current Army requirement for CALSETS 
2000 is 40: 29 tactical sets, six echelon above corps sets, 
three training base sets, and two sustaining base sets. To 
date, 20 CALSET 2000 systems have been procured. Without 
funding to procure additional sets, the military will continue 
to rely on a combination of CALSET 2000, and AN/GSM-286 and AN/
GSM-287 tactical sets. The AN/GSM 286/287 sets have the same 
calibration capability, but do not meet mobility and 
survivability requirements.
    The Army is taking risk by not providing funds to modernize 
existing calibration equipment or to fill emerging calibration 
requirements gaps. The Deputy Chief of Staff, G4 is conducting 
a world wide mission assessment to determine how the Army will 
perform test, measurement, and diagnostic equipment (TMDE) 
calibration and repair support without an equipment acquisition 
program. The assessment focuses on risk mitigating solutions, 
including: deployable modular military support teams, contracts 
for calibration and repair support services, realignment of 
existing CALSETs sets into discrete missions and functions, a 
review of critical calibration standards and the systems they 
support, and the potential for creating a Joint Calibration and 
Repair support program. It will also address the legal 
liability associated with calibration, impacts of repair 
support to TMDE and review lessons learned and business cases 
used by commercial industry today.

                       FUTURE COMBAT SYSTEM (FCS)

    Senator Shelby. Okay. Future Combat Systems. Secretary 
Brownlee, how is the FCS-lead systems integrator (LSI) team 
performing? Is technology development where you want it to be?
    Mr. Brownlee. Sir, I get different reports from the people 
who are over watching that. They tell me that they are doing 
well. I have to tell you that I have had some concerns about 
that and so recently I wrote a letter to the Institute for 
Defense Analysis and asked them to please examine the LSI 
relationship between the Army and the LSI contractor and to 
provide that report to the Army, just to be sure that that 
relationship is working as we intended from an independent 
point of view. So we will get that and that should be done in 
several months.

                                STRYKER

    Senator Shelby. Could you talk about the Stryker vehicle 
performance in this setting in Iraq?
    Mr. Brownlee. Yes, sir, I can, and I am sure Pete would 
like to add to whatever I might say. But we have been very 
pleased with the way it is performing in Iraq. We have had 
several vehicles that have been hit by rocket propelled 
grenades (RPG's) that have survived in the way we intended, and 
this is with an interim protective system, the slat armor that 
we put on it which was an interim protective system. So far 
that has worked as intended. The reports we get from the field 
are very good with respect to that vehicle and we are very 
pleased with it so far.
    Senator Shelby. General?
    General Schoomaker. Sir, I am very pleased with the way 
Stryker has performed, not only as a vehicle but as a system. 
The amount of infantry that is in Stryker is amazing and its 
lethality, its ability to network and move. As you know, we 
have just gotten our commitment and approval out of OSD to 
proceed with Stryker 5 and 6, so that completes Stryker. As we 
move forward----
    Senator Shelby. That is a good endorsement, too, is it not?
    General Schoomaker. Sir, it is. The improvements that are 
being made to Stryker along the lines of protection are 
significant. Currently it is the second best protected system 
that we have, second to the M-1 tank, and it will continue to 
improve. So we are very happy with what we see there.
    Senator Shelby. Mr. Chairman, we will get another round?
    Senator Stevens. Yes, we will.
    Following the early bird rule, next we recognize Senator 
Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.

                               STOP LOSS

    You said--I think your concept is outstanding, and you said 
you were going to use stop-loss orders to keep the people as 
you are in your retraining process. How long do you anticipate 
those stop-loss orders will be?
    Mr. Brownlee. We only stop-loss units that are alerted to 
be deployed, units that are deployed, and units that have 
immediately returned from deployment. This is to, as General 
Schoomaker said, stabilize that force so that it stays 
together, trains as a team, deploys as a team and a unit, and 
fights that way.
    Senator Hutchison. And how long do you anticipate the stop-
losses to last?
    General Schoomaker. We stop-loss from alert to up to 90 to 
120 days upon return. But you might have misunderstood me here. 
Our temporary end strength--our temporary growth that we have 
asked for above end strength is not stop-loss. We do not want 
to use stop-loss for that. We want to recruit and specifically 
target where those go.
    So we will continue to use stop-loss for those units that 
are specifically going to war, to hold them together, and we do 
that very carefully. I mean, we recognize what stop-loss is, 
but if you take a look at our other initiatives, which is force 
stabilization, as we move to modularity and stabilize the force 
it will reduce our requirement to have to use stop-loss.

                     RESERVE COMPONENT DEPLOYMENTS

    Senator Hutchison. I understand. Let me ask you this. Are 
you going to be able to show fairly quickly a relief to Guard 
and Reserve deployments?
    General Schoomaker. I think you know we have just alerted 
three more brigades and a division headquarters for OIF-3, and 
we have done it early to provide the predictability and the 
time so that people are not being rushed as has been necessary 
in the past. But again, the more of these brigades we can 
create on the active side--and that is why we have asked to do 
the 10 brigades in 3 years. We have already got one in the 3rd 
Infantry Division. They have already reset into a four-brigade 
division. We are going to do two more this year. We will do 
three or four next year and the residual three or four the 
third year.
    The faster we can achieve that, the less we are going to 
have to--the more relief we can give to calling the Guard, as 
long as we are at this level of effort. If this level of effort 
reduces, of course, the requirement for the National Guard will 
reduce commensurately.
    Senator Hutchison. Do you have a long-term goal on how long 
you would ask a member of the Guard and Reserve to activate 
during their time that they have signed up to serve?
    General Schoomaker. We are working very hard to reduce the 
amount of post-mobilization training requirements in the Guard. 
If we get into force stabilization and modularity, it will 
allow us to predict when we have to call--when a unit would be 
in the window of alert.
    Senator Hutchison. I understand that you are saying 
predictability is very important, and it is. But I am also 
visiting our Guard and Reserves in Kuwait, Afghanistan, Iraq, 
and at home, and part of their frustration, as you know, is 
overdeployment. It is not just being able to tell when they are 
going; it is going so much.
    General Schoomaker. The path to relieve their frustration 
is the faster that we can get to this level, it will increase 
the dwell time between deployments. As I said, we could get on 
the Active side one deployment in a 3-year cycle, on the Guard 
side we can get one deployment in a 5- or 6-year cycle in a 
predictable fashion. Our desire is to limit these deployments 
to 6-month deployments if we have to do it.
    Senator Hutchison. That is what I was after. Thank you very 
much.
    Senator Stevens. Senator Dorgan is recognized.
    Senator Dorgan. Mr. Chairman, thank you.

              RESERVE COMPONENT RECRUITMENT AND RETENTION

    Secretary Brownlee and General Schoomaker, the National 
Guard and Reserve are being used in a manner that we had not 
previously anticipated. I think everyone agrees with that, and 
we have Guard and Reserve troops in Iraq that have now been 
mobilized for 13 months, away from homes, families, and jobs 
and who may not be back home until May. That was certainly not 
anticipated, and we have had long discussions about that.
    Let me ask, what is this doing to recruitment and 
retention? There has been some concern about recruitment and 
retention rates in the Guard and Reserve. Can you give me 
information about that? I see General Schultz is here and 
perhaps he has information about that as well.
    Mr. Brownlee. Sir, in the National Guard in fact our 
retention rates, I believe, are running over 100 percent right 
now. Reserves are a little bit below the glide path that we 
would desire. We believe we can get that up in order to meet 
our fiscal year 2004 goals.
    Senator Dorgan. At this point, then, you are not concerned 
about, based on your experience and also looking forward, you 
are not concerned that the increased deployments are going to 
affect recruitment and retention?
    Mr. Brownlee. Sir, I am always concerned, I very much am. I 
think this OPTEMPO certainly has human costs that we have to 
measure and what we have told the Army staff is we want to know 
when the light on the dashboard flickers amber so we can take 
measures and steps to try to get things under control. What we 
want to avoid is having people come in and tell us when every 
light on the dashboard is red and then we are in trouble.
    So that is the way we are trying to operate it. But I would 
not want to tell you we are not concerned. We are very 
concerned and that is one reason that we have come forth with 
the initiative to grow the size of the Army to reduce the 
stress.
    General Schoomaker. If I could, I may be the only person in 
the room that thinks it is extraordinary that we are calling 
the Guard and the Reserve. I think that is what we are for and 
I think that the Active, Guard, and Reserve are all volunteers. 
Now, what is disappointing is that we are working, of the 
million people we have in uniform, we are working too few of 
them too much. Part of what we have to do in our restructuring 
is distribute the load across the force, and that is what we 
are trying to do here.
    But the Guard right now is leading in both recruiting and 
retention in the Army, which is counterintuitive. But in fact--
and I will let Roger verify, validate that.
    Senator Dorgan. The reason I ask the question is it is 
counterintuitive, you would think. And I think it is 
extraordinary, by the way. I would not necessarily agree with 
you.
    General Schoomaker. It is.
    Senator Dorgan. It is extraordinary that we would call up a 
unit and they are gone 17 months or in some cases close to 18 
months from family, home, and job, and in a couple of cases 
only 2 years following a deployment to Kosovo.
    I understand that is what the Guard and Reserve are for, 
but I think you have indicated in your testimony we need to be 
judicious about how often we deploy them and how long we deploy 
them, because they are citizen-soldiers.

                      SUPPLEMENTAL BUDGET REQUEST

    Let me ask a question. You have mentioned General Sinn and 
we are very proud of General Sinn in North Dakota. You 
indicated that he is keeping track of costs. I suspect that you 
are taking a look at what are the anticipated future costs here 
with respect to deployments and, for reasons that the chairman 
and others have discussed on the floor with me and others, that 
those costs are not included in the budget. But I would expect 
that we will then pass a supplemental. We passed a $60 billion 
supplemental for the military at the end of 2003 and we will do 
that again.
    But can you give us some sense of what kind of costs you 
are seeing and what kind of costs you are planning for that are 
not yet included in the budget, but that we will be confronted 
with with respect to a supplemental?
    Mr. Brownlee. Sir, the cost of the operations, if you count 
all the costs to include the personnel costs, which maybe 
should not be counted, but it runs for both Afghanistan and 
Iraq over $4 billion a month. Most of that would be covered, is 
covered now, by the supplemental that was previously passed. 
The Army got roughly $40 billion of I believe the $65.1 billion 
that was provided by the Congress for military operations and 
that is what we are using for that. We believe that certainly 
is adequate to take us to the end of this fiscal year.
    We may need some assistance from the administration, 
depending on whether the costs continue or increase. So that 
right now is where we see that.

                              ADD-ON ARMOR

    Senator Dorgan. Let me ask--my time is about expired. I 
want to ask one additional question. The marines recently 
engaged in a contract to buy sets of what is called LAST 
ceramic armor for HMMWV's in Iraq. As I inquired about that, I 
understood the marines determined that the LAST armor is the 
quickest and most efficient way of protecting its vehicles, 
HMMWV's, after observing tests done by the Army.
    Does the Army have plans to proceed in a similar fashion? 
These are--apparently it is ceramic armor for the doors of 
HMMWV's that the marines observed in testing that the Army did, 
and they decided to proceed to purchase.
    Senator Stevens. Your time has expired, I hope that you 
realize.
    Senator Dorgan. I preceded my question by suggesting my 
time was about to expire. I finished my question and if they 
have time to answer I would appreciate that.
    Mr. Brownlee. Sir, if we could take that for the record. I 
would prefer not to address that in open session.
    Senator Dorgan. That would be fine. Thank you very much.
    [The information follows:]

                    Add-on Armor Kits for the HMMWV

    The Army did not purchase the LAST Armor produced by 
Foster-Miller Inc., in Waltham, Massachusetts because the 
ceramic did not address the holistic approach to HMMWV add-on 
armor protection that the Army desired. The LAST Armor, a 
ceramic armor plate, provides only partial door protection, has 
no back plate or perimeter protection. Also, the ceramic armor 
is very expensive: $600 per square foot as opposed to the 
Rolled Homogenous Armor (RHA), which is used in our Army 
Research Laboratories (ARL) add-on armor kits, at $15 per 
square foot. In October 2003, the LAST Armor was sent to the 
Army Test Center where the armor demonstrated reasonable 
protection against ballistic threats. But there were concerns 
about the robustness of the ceramic armor when it is attached 
to the vehicle. LAST Armor is mounted to the canvas door of a 
HMMWV with clips and Velcro, and cannot be expected to stop an 
improvised explosive device blast since the canvas door would 
likely dislodge, thereby creating an additional piece of 
fragmentation (door and armor plate) that can injure or 
mortally wound the Soldier.
    The Army has purchased 6,900 ARL add-on armor kits and 
1,500 O'Gara Hess add-on armor kits for HMMWVs. The Army kit 
provides door, perimeter, and back plate protection with 
ballistic glass and air conditioning. ARL's durable kit is 
composed of \3/8\ inch RHA and it takes approximately three 
hours to install all kit components. To date, 2,675 kits have 
been produced and 2,079 kits have been installed in theater. 
The U.S. Marine Corps is scheduled to receive 650 of these ARL 
add-on armor kits as well.
    The Army believes LAST Armor is a good commercial off-the-
shelf force protection product for civilian and local law 
enforcement, but does not provide robust or extensive enough 
force protection for Soldiers deployed to Iraq and Afghanistan.

    Senator Stevens. Senator Cochran is recognized.
    Senator Cochran. Mr. Chairman, thank you.

                           ROTATION OF TROOPS

    General Schoomaker, I understand the Army is in the midst 
of one of the largest troop rotations in the history--well, 
since World War II anyway. You have pointed out that in this 
period of 4 months from December through April you will have 
110,000 troops deploying to the Iraq theater of operations and 
120,000 returning. That is quite a challenge. You have said we 
are entering the most challenging period for the Army since 
World War II.
    I wonder what you have done to help ensure the protection 
of those forces during the troop rotation and the logistical 
challenges that you face? Have you had enough equipment, 
airlift, sealift, support from the other forces or from the 
total force concept?
    General Schoomaker. Sir, it is a great question. We in fact 
are moving over 250,000 people in those 4 months. We are moving 
on average 5,000 people in and out every day. We have done very 
close work with Central Command, General Abizaid and his folks, 
to ensure the proper protection and operational security. All 
of the things that are required there are extraordinary, and 
the support we have had out of Transportation Command, General 
Handy and his folks, in managing this movement is 
extraordinary.
    What I find to be particularly extraordinary is we are 
right now at the very peak of this and it has been virtually 
seamless. It has been very, very well done. We are very proud 
of what the joint team has done to be able to pull this off, 
and we do not anticipate we will have any problems in the 
future because it is running very smoothly.

                 NATIONAL GUARD AVIATION MODERNIZATION

    Senator Cochran. We have a good number of reservists and 
guardsmen on duty around the world. I have been told that about 
40 percent of the force in Iraq is made up of reservists and 
National Guardsmen. I know we have 22 Guard and Reserve units 
represented from my State that are deployed to the theater.
    One of our groups represented over there is an Army 
National Guard aviation group from Tupelo, Mississippi. They 
fly helicopters, and when they were deployed they realized they 
had lost their helicopters to a Tennessee Guard unit that had 
gone on before them, and they were anticipating some 
replacement helicopters. But these are challenges that I know 
you are facing. They have been dispersed among some other 
units, so they can take advantage of their training and their 
capability of contributing to the mission there.
    But I am sure the aircraft distribution challenge is 
something that you are looking into and trying to manage as 
well. Do you have the replacement aircraft that you need, 
helicopters, for National Guard aviation units? Is there 
anything we can do in this budget cycle to help you overcome 
the deficits that you may face?
    Mr. Brownlee. Sir, I appreciate the question and I have 
looked into this. That unit of yours has performed remarkably, 
because we used them in a way that we would prefer not to. We 
had to use them almost as fillers for other units. That is part 
of our reorganization of the Reserve components that we are 
going to address.
    We have too much force structure for the number of people 
we have, so when we call a unit up we have to take people from 
other units to fill those units up. We want to reduce the 
number of units, but not reduce the number of people, so we can 
keep units filled. One point.
    The second point is, for the unit at Tupelo, they did lose 
their OH-58's, their Kiowas, to the Tennessee unit. Under the 
aviation plan that is being put together right now, it is yet 
undetermined whether they will receive Kiowa Warriors back in 
that unit or Apaches. But that decision should be made soon and 
we will make sure that you know as soon as we make that 
decision.
    General Schoomaker. I would like to just jump on that. You 
asked what can you do. Support the movement of the Comanche 
funding to the Army aviation modernization, because we are 
going to purchase 800 new aircraft and upgrade 1,400, and that 
is for the Active, Guard and Reserve. It makes the Guard and 
Reserve well in aviation, and that was a significant factor in 
making the decision to go this direction.

                   ARMORING BRADLEY FIGHTING VEHICLES

    Senator Cochran. In connection with force protection, we 
heard about the upgrading of the armor for HMMWV's. Is there a 
similar program underway for the Bradley fighting vehicles?
    Mr. Brownlee. Sir, the Bradley fighting vehicles can be 
equipped with what we call reactive armor. We have some 
reactive armor sets. We do not have enough for every Bradley in 
theater, but the Bradley of course has the kinds of ballistic 
protection already inherent in its organic armor up and beyond 
that that the up-armored HMMWV would have. The reactive armor 
that we are talking about would provide additional protection 
from even more deadly weapons, and we do not normally put that 
on every Bradley, but only on selected units.
    Senator Cochran. As part of the improvement of the 
helicopter and other aviation situation----
    Senator Stevens. Senator, I am sorry to say your time is 
up.
    Senator Cochran. I would be glad to wait for another round. 
Thank you.
    Senator Stevens. Senator Shelby--Senator Burns. Pardon me. 
Senator Burns.
    Senator Burns. Mr. Chairman, I have a statement I will put 
in the record.
    Senator Stevens. Without objection.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman. I would like to thank the 
witnesses for coming before our subcommittee today, to testify 
on the Army's fiscal year 2005 budget.
    Our military, and the U.S. Army in particular, has many 
folks engaged in Afghanistan and Iraq, fighting the war on 
terrorism. We are winning this war on terror. Our soldiers, 
sailors, airmen and marines are performing magnificently. We 
must honor those who have made the ultimate sacrifice for our 
country, to ensure that our forces have the resources to defeat 
the enemies of our country. With 325,000 soldiers deployed in 
120 countries, including 165,000 reservists, there is no 
question that our forces are being challenged.
    I see the increasing trend in the ratio of reservists 
overseas from 37 percent in the early stages of Operation Iraqi 
Freedom to 46 percent currently. In Montana, over 40 percent of 
our National Guard units have been called to active duty. I 
intend to do my part as their representative to ensure our 
armed forces have what they need to win this war, protect our 
homeland, and come home safely.
    We have announced that the Army force structure will grow 
by 30,000 soldiers, on a temporary basis. We must plan 
appropriately to house, equip, and train these men and women 
who serve. While the force structure increase may be temporary 
and funded through the supplemental appropriation, I urge the 
Army to consider all the costs associated with this increase so 
that we are not forced to sacrifice the research and 
development of systems that maintain the superiority of our 
forces, just so that we may support our operating budget.
    I read daily of our great American Soldiers and Marines 
developing unconventional solutions to solve the problems they 
face in the field. I think it makes a great deal of sense to 
have an organization chartered to bring good ideas from our 
nation's universities, laboratories, and small businesses to 
the soldiers as soon as possible, and where necessary, 
bypassing the bureaucracy. I encourage your continued support 
of Army initiatives to expedite the fielding of urgently needed 
equipment through efforts such as the Rapid Fielding Initiative 
and the Rapid Fielding Force. These efforts have resulted in 
the fielding of great innovations such as advanced weapon 
sights, optics, compact soldier communication systems, and 
compact GPS Receivers.
    I see that the Army has been cooperating with other 
agencies such as DARPA on a range of technologies urgently 
needed for the war on terror. This cooperation has allowed us 
to field technologies to defeat improvised explosive devices, 
investigate underground structures, and provide a low cost air 
reconnaissance capability to our forces.
    I am aware of the program initiated to transform our Army 
ground forces; the Future Combat Systems. It is a good sign of 
its acceptance by the Army to see its transition from science 
and technology into full-scale development. It is encouraging 
to see the Army take ownership of this program, begun 
unconventionally in partnership with DARPA, on a very 
challenging schedule intended to field an evolutionary 
capability in the near term. More recently in Operation Desert 
Storm and Operation Iraqi Freedom, we witnessed the incredible 
advantages of joint operations, leveraging the advantages of 
air superiority and precision weapons. We have seen an increase 
in the number of Unmanned Air Vehicles (UAVs) in use by our 
forces at all echelons. The feedback I have received from the 
soldiers on the ground is that they wish they had more of these 
systems, not less.
    I look forward to seeing how the Army will amend its budget 
and re-allocate the resources dedicated to the Comanche within 
the Army to other aviation programs, like the continued 
fielding of technology that will add a measure of protection to 
our Blackhawks and Chinook helicopters.
    Again, I thank all of you for being here today. I look 
forward to the discussion before us this morning. Thank you.

    Senator Burns. I just have one question.
    By the way, I just want to state publicly now: 
Congratulations. Our visits to Iraq and Afghanistan have been 
very fruitful and I want to congratulate your people, both 
leadership and the Government issue (GI's) that we have got on 
the ground. They are doing a remarkable job under very 
difficult conditions, knowing that they are the target and are 
in a reactive position rather than in an active position, which 
is a tough way to operate your business. The morale I found was 
high. I was really impressed with the leadership of those young 
men and women that you have over there, and I want to 
congratulate you on that. That comes from an old marine and it 
comes hard. No, not really.

                RESERVE COMPONENT TRAINING AND EQUIPMENT

    We have got 40 percent of our Guard in Montana deployed and 
now we have gotten notification that the 163rd Mechanized 
Infantry Regiment out of Bozeman, Montana has been put on 
alert. There is some question about equipment. I have worked 
very hard to build the infrastructure for training both in my 
Reserves and my Guard in Montana, because whenever the move was 
made that a lot of our force structure was going to go into our 
citizen-soldiers I made sure that they had, the Guard and the 
Reserves, communications that was interactive for training, the 
facility was part of the recruitment and the morale of the 
troops. I felt their training had to be as good as what we are 
providing our soldiers on active duty.
    But I am just wondering about the equipment when they 
deploy. Now, some of the equipment is not up to what we find 
with our active duty personnel. Will their equipment, such as 
the body armor--and I have got written down here ``HMMWV, body 
armor''--will that all be brought up to the same as active duty 
whenever they are deployed?
    General Schoomaker. Sir, we have equipped the Guard--the 
30th, the 39th, and the 81st that right now are in motion for 
OIF-2 received the top, the most modern body armor, equipment, 
helmets, what we call RFI, the rapid fielding initiative. They 
received it ahead of the Active Force, and we are now of course 
catching up on the Active Force.
    But our intention and our commitment is to equip the Army 
at the top level across the Active, Guard and Reserve and to 
train, to do what you are talking about uniformly across the 
force. That is our initiative here as we go to modularity, 
stability, and to do the kind of things that we are talking 
about doing.
    Senator Burns. That is good news. Also, when you integrate 
they have still got to be part of a team and they have got to 
understand what position they play on the team, so to speak. I 
have been always concerned about that.

                   IMPROVISED EXPLOSIVE DEVICES (IED)

    Under another, I would like some sort of a briefing 
whenever we get time, and I can communicate this with Secretary 
Brownlee, but deploying new technologies for detection and 
worrying about these roadside bombs and detection devices. Is 
the Defense Advanced Research Projects Agency (DARPA)--are you 
satisfied with the progress that DARPA is making in new 
technologies for detection?
    Mr. Brownlee. Sir, we have within the Army an IED task 
force. I do not want to get into a lot of detail of what they 
are doing, but let me say that not just DARPA but every agency 
that can help has been asked to help and has been very 
forthcoming. Let me just say that we are pleased with what this 
task force is doing and what they are accomplishing and what it 
looks like we can accomplish, and we would be happy to provide 
that to you in a different session.
    Senator Burns. Well, it looks like this is the wave of the 
future and I think that is pretty important.
    That is all the questions I have and I want to congratulate 
the General on his boots.
    General Schoomaker. Sir, those are Wyoming boots.
    Senator Burns. That is what I thought. Are you as good a 
roper as the boots are?
    General Schoomaker. I am a half-decent roper. Are you a 
heeler?
    Senator Burns. I can do both ends, but I am not very good.
    General Schoomaker. Good. I do not play golf; I do that.
    Senator Burns. Good man.
    Senator Stevens. The most important question is, do you 
fish, General?
    Senator Burns. He does that, too.
    Senator Stevens. We will cover that later.
    Tell us about the Future Combat System and what the status 
of that project, program, is now, will you please?

                          FUTURE COMBAT SYSTEM

    Mr. Brownlee. Sir, let me say a little bit about the 
program. As you know, it is the Army's system of systems 
approach to equipping our future forces. We intend to convert 
most of our heavy units to that and maybe some others in the 
future. Right now we are looking at an initial operational 
capability by 2010 and a full operational capability by 2012. 
It is all in R&D development right now and, as I said, we have 
this approach with a lead system integrator where the 
contractor works very closely with the Army in the development 
of these systems.
    Do you want to comment on what we intend to do with it?
    General Schoomaker. I think the best statement is that we 
think we are going to fulfill, we have got confidence we are 
going to fulfill, the Future Combat System. We are protecting 
the funding. We are moving forward on it. We are informing 
ourselves with our current operations and spiraling things into 
Future Combat System, and we are trying to pull technologies as 
they are developed back into the current force.
    So I look at the Future Combat System not as a destination, 
but as an effort every day as we move out there. I am fairly 
confident that we are going to do well there. The biggest 
challenge we have in the Future Combat System in my view is the 
command, control, communications, computers, intelligence, 
surveillance, and reconnaissance (C\4\ISR), the battle command 
and the intelligence, surveillance and reconnaissance aspects 
of that, because it is a network, it is dependent upon the 
network, and we must achieve the networkcentricity that is 
required for us to really optimize what the Future Combat 
System holds. It will significantly improve our ability to 
operate as part of a joint team.

                      SUPPLEMENTAL BUDGET REQUEST

    Senator Stevens. Gentlemen, I think I must take 
responsibility for the fact that there will be no supplemental 
this year, in the balance of this fiscal year. We just spent 
too much time on those supplementals in the past. I had the 
Congressional Research Service (CRS) take a look at policies we 
have followed now since the Persian Gulf war and those policies 
have been that in the initial periods of a war, engagement 
overseas, we have followed the practice that the Commander in 
Chief takes money from the funds we have already made available 
for the Department of Defense and uses them in the conduct of 
that activity and then later comes in and asks for a 
supplemental which repays the amounts that have been taken from 
the regular accounts, and then provides for the balance of the 
fiscal year for those activities using the experience of the 
first quarter, quarter and a half of the new fiscal year to 
determine how much will really be needed for that fiscal year.
    My question to you is, you have not lived through those 
periods, but in terms of your judgment has the Army--the Army 
bears the real brunt of this type of policy. Has it in anyway 
been harmed by that practice? Is it a practice we should 
abandon and ask for a supplemental now? The budget will have at 
least $30 billion indicated as being available for the 
supplemental some time after the beginning of next calendar 
year.
    I want to know, are you willing to go on the record and 
tell us whether this policy adversely affects the Army in its 
activities in the conduct of the war?
    Mr. Brownlee. Yes, sir. We have looked at this very 
carefully and we believe with the funds we have in fiscal year 
2004 both in our budget and from the supplemental that we can 
clearly get to the end of fiscal year 2004. If we get in 
trouble, OSD has assured us they are able to help. Beyond 
fiscal year 2004 when we would have the funds available in the 
fiscal year 2005 budget, we would be able to cash flow funds 
out of third and fourth quarter funds to help us in the first 
and second quarters, and if there are additional problems that 
might arise, we have checked with OSD and they believe the 
administration is capable of providing any other help we might 
need, which means we should be able to carry ourselves at least 
through the end of March next year, maybe a little beyond. I 
would not want to put a date on it, but at least until then. 
That is our best estimate.
    Senator Stevens. That is the policy we followed in Kosovo 
and Bosnia and as a matter of fact in the initiation of the 
Persian Gulf war.
    Mr. Brownlee. Yes, sir.
    Senator Stevens. But there has been a request that we 
change that policy. You are confident that you can live with 
this policy in terms of this war?
    Mr. Brownlee. Notwithstanding any emergencies that we do 
not see now, sir, we can.
    Senator Stevens. General and all your general officers, you 
lived--I am going over the line a little bit here--you lived 
through these other engagements. Was the Army inconvenienced in 
Bosnia or in Kosovo in that manner of funding the operations 
overseas?
    General Schoomaker. Sir, not that I am aware of. The only 
thing that I would say--and it is a little bit below the radar 
screen probably--but as you know, there are anti-deficiency 
rules and there are times when we could make better decisions 
if there was certainty of funding in certain areas, so that we 
may be able to not only anticipate better but provide better 
fiscal management if we had the opportunity to do a little 
longer lead time on some things.
    But in terms of the macro picture and the big news, I am 
not aware of there having been a problem in that.
    Senator Stevens. Senator Inouye.
    Senator Inouye. Thank you.

                 TRAVELING ARMY EXHIBIT ON INTEGRATION

    As you can imagine, as part of my work I try my very best 
to travel and meet and listen to men and women in uniform. I 
find that there are two elements involved in the development of 
a combat soldier. One is morale, naturally; and the other is 
the sense of belonging to a unit.
    So some years ago I began questioning people and, to my 
surprise--I should not have been surprised--almost no one had 
ever heard of the Fifth Regimental Combat Team, made up of 
Puerto Ricans, which served in World War II. When I tell that 
to the Puerto Rican Americans, their eyes light up and they 
say: My God, we had our men in there?
    Even with all the documentaries we have had about the 
members of the Army Air Corps, the Tuskegee Airmen, not too 
many Americans are aware of them. But when you tell them that 
this unit protected bombers and never lost a single bomber they 
are stunned. They were made up of men who were segregated, like 
the Puerto Ricans were segregated. Then when I tell them that 
there was a Filipino regiment, a combat team, sent to the 
Philippines just before December 7 and they ended up the war 
with less than 800 men because they were left there by General 
MacArthur to serve as the basis of a guerrilla force, they are 
stunned. When I tell Hispanic Americans that 17 of them have 
medals of honor, they cannot believe it.
    So, Secretary, you and I have worked out something of a 
traveling exhibit. We are going to send them all over the 
museums of the posts. I just want to know, how is it coming 
along.
    Mr. Brownlee. Yes, sir. Sir, I will provide the answer for 
the record, but to my knowledge we are proceeding with that. I 
certainly support what you are doing. I think it will show a 
real benefit to the Army in recruiting and we want to do that. 
So I thank you for the idea and I will get you a detailed 
account of where we are.
    [The information follows:]

                       Traveling Army Art Exhibit

    Sir, I have asked our Chief of Military History, Brigadier 
General John S. Brown, to take the lead for the Army on this 
very important project. A partnership between the National 
Center for the Preservation of Democracy and the Army has been 
established for the purpose of establishing a traveling 
historical exhibit. I believe this is an excellent idea, and 
that the evolution through time of an acceptance of cultural 
and racial differences is a worthwhile theme. Certainly the 
spirit of tolerance is one of the greatest strengths of our 
present armed forces and of our democratic heritage. The funds 
have been transferred to the Center of Military History. 
General Brown's staff is currently working out the contracting 
details and assisting in coordinating the traveling venues with 
the National Center for the Preservation of Democracy. General 
Brown is scheduled to have an office call with you on Monday, 
March 22, 2004, and can answer any specific questions you have.

    Senator Inouye. Well, we have a lot of talk about human 
rights and civil rights. Integration began in the Army. That is 
the first place. It was not the Interior Department or any 
other Department; it was the Army.
    Mr. Brownlee. Yes, sir. Sir, thank you for that.
    Senator Inouye. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Stevens. Senator Shelby.
    Senator Shelby. Thank you.

                                 RESET

    I would like to go back to the reset programs, the 
projections for it. It is my understanding from some of the 
depots, that a plan to do reset has not--the plans have not yet 
materialized, General, while projections for the reset workload 
at the depots continue to go down. Is 10/20 the standard our 
soldiers deserve? An adequate overhaul, a lot of people 
contend, cannot be accomplished anywhere but in the depots.
    What is the real reset plan for the depots? Mr. Secretary, 
do you want to touch that?
    Mr. Brownlee. Sir, we are using the depots now. You might 
be interested to know that in these depots, particularly the 
one in Anniston, we are using them to assist us in preparing 
armor kits for all the HMMWV's that are not up-armored as they 
cross the line.
    Senator Shelby. I know. I was down there. I just saw what 
they are doing.
    Mr. Brownlee. They are cutting steel and putting together 
kits----
    Senator Shelby. It is very innovative.
    Mr. Brownlee [continuing]. To help us do that, and we are 
very appreciative of that. In fact, we fly those over, that is 
how important that work is that they are doing there.
    Senator Shelby. What about the projected work on reset for 
the depots? It has not come forth yet. What do you--what is 
going on here?
    Mr. Brownlee. Sir, a lot of our equipment has not been 
brought back yet, and we have provided for I believe it is 17 
systems--is that the number that we would propose----
    General Schoomaker. I think 15 systems in reset.
    Mr. Brownlee [continuing]. That we have provided for, and 
it should get to the depots soon. I am not sure why it has not. 
Now, some of it we are going to have to do in theater because 
it is going to stay there.
    Senator Shelby. Would you get back to me on the details of 
this? Will you get the details to me?
    Mr. Brownlee. Okay, sir, we will do it.
    General Schoomaker. Sir, I have got----
    Senator Shelby. General?
    General Schoomaker [continuing]. A card here, if I could, 
comment on that. We requested and received $1.2 billion in 
fiscal year 2004 supplemental funding for depot-level resetting 
the force, above our President's budget 2005 position. So this 
is going to be a massive effort. As I said, this effort will 
continue 2 years beyond the emergency as we reset the massive 
amount of equipment.
    Senator Shelby. We are bringing our equipment up to 
readiness status.
    General Schoomaker. Yes, sir. Yes, sir.

                     SCIENCE AND TECHNOLOGY FUNDING

    Senator Shelby. The science and technology (S&T) funding, 
General. In comparison to 2004 funding, every R&D account but 
one goes down in the 2005 request. Basic research is cut $64 
million, applied research is cut $389 million, advanced 
technology development is cut $391 million, advanced component 
development and prototypes is cut $186 million, RDT&E 
management support is cut $34 million, and operational systems 
development is cut $167 million.
    I am not sure how the R&D program is balanced. I support 
FCS, but it seems that the budget is harmful to the Army's 
organic labs and this could be a problem, Mr. Secretary.
    Mr. Brownlee. Sir, we actually--our R&D actually went up 
from fiscal year 2004 to fiscal year 2005.
    Senator Shelby. But not in these specific programs.
    Mr. Brownlee. Not in those specific accounts. Sir, we will 
have to take a look at them. I suspect also because we had 
about $1.2 billion in development funds for Comanche, much of 
which will now be directed into procurement, that that number 
is going to be adjusted when the budget amendment comes over.
    Senator Shelby. Would you look at these accounts, take a 
second look?
    Mr. Brownlee. Yes, sir, we will.
    Senator Shelby. These are organic lab accounts. I think 
they are important for the future.

                         MINIATURE KILL VEHICLE

    I want to get, while I have got a little time hopefully, to 
Space and Missile Defense Command (SMDC). You are very familiar 
with that. The SMDC Technical Center is managing the miniature 
kill vehicle (MKV) program. What do you think of the MKV 
program and the technical center's role?
    Mr. Brownlee. Sir, I would have to take it for the record.
    Senator Shelby. Do you want to get back with us on this?
    Mr. Brownlee. I will.
    [The information follows:]

                         Miniature Kill Vehicle

    Recent changes in policy, brought about by the demise of 
the Anti-Ballistic Missile Treaty, allow a broader set of 
midcourse defense alternatives to be developed, tested and 
fielded. The Multiple Kill Vehicles program, formerly titled 
Miniature Kill Vehicle, is addressing the need for a lower cost 
solution to emerging ballistic missile threats that may carry 
multiple reentry vehicles or sophisticated countermeasure 
suites. The Army's Space and Missile Defense Technical Center's 
long history of demonstrated success in developing advanced 
ballistic missile interceptors and in advancing basic science 
leading to component miniaturization under the Small Business 
Innovative Research program makes it the natural choice to 
serve as the Missile Defense Agency's Executing Agent for the 
Multiple Kill Vehicles program.
    The Multiple Kill Vehicles (MKV) program will address 
midcourse discrimination issues created by countermeasures 
postulated for the 2010+ timeframe by intercepting all credible 
threat objects with one or more kill vehicles. This solution 
offers a low system cost and an effective approach against 
ballistic missile threats just beginning to emerge by using 
multiple kill vehicles deployed from a single booster and 
carrier vehicle to intercept all credible objects that have not 
been positively identified as non-lethal. At very high closing 
velocities, even a low mass kill vehicle will have enough 
kinetic energy and penetration capability to kill a threat 
warhead in most engagements. This work is indeed critical for 
the defense of the United States and our allies against long 
range ballistic missiles; however, the capability under 
development through the MKV program is not currently designed 
to engage battlefield rockets and other short-range threats 
currently encountered in Iraq.

    Senator Shelby. We have been told that the work is critical 
and the technology is badly needed. I do not know if this is 
the right forum to discuss all this.

   PATRIOT ADVANCED CAPABILITY--PHASE 3 (PAC-3) MEDIUM EXTENDED AIR 
                  DEFENSE SYSTEM (MEADS) REPROGRAMMING

    Mr. Brownlee. I am not sure either, sir. I will be happy to 
take it for the record.
    Senator Shelby. Will you get back with me on this?
    Of course, the PAC-3 MEADS transfer to the Army, there was 
apprehension in the Congress that the Army might use these 
funds to pay other bills. We were met a couple weeks ago with a 
reprogramming action. Could you get this to me, too?
    Mr. Brownlee. What funds were these, sir?
    Senator Shelby. Reprogramming action, MEADS.
    General Schoomaker. PAC-3.
    Senator Shelby. PAC-3 MEADS.
    Mr. Brownlee. Sir, I will look.
    Senator Shelby. Will you get back with us on the record on 
that?
    [The information follows:]

                          MEADS Reprogramming

    The Army submitted a reprogramming request in order to fund 
critical Patriot software and hardware upgrades. These software 
and hardware upgrades will address deficiencies within the 
current Patriot system that contributed to the two incidents of 
fratricide during Operation Iraqi Freedom. These upgrades will 
improve situational awareness, command and control, 
classification, correlation, and operations in areas of 
increased electro-magnetic interference. Since final decisions 
on the combined aggregate Patriot/MEADS program, to include 
negotiations with international partners, have yet to be 
finalized, the MEADS portion of the combined program was deemed 
an appropriate bill-payer for these important Patriot upgrades.

    Mr. Brownlee. You know, we greatly accelerated that program 
just before the war and we were going to bring it back down to 
a more reasonable level, because we did really accelerate it 
just before the war, PAC-3.
    Senator Shelby. If you will discuss those.
    Mr. Brownlee. Yes, sir.
    Senator Shelby. Mr. Chairman, thank you very much.
    Senator Stevens. Senator Cochran.
    Senator Cochran. Thank you, Mr. Chairman.

                        UNMANNED AERIAL VEHICLES

    General Schoomaker, as part of the announcement of the 
cancellation of the Comanche program, I understand the Army has 
decided to use unmanned aerial vehicles to fulfill some of the 
capabilities that Comanche was to provide, and that you have 
identified over $300 million from that program to procure 
additional legacy and future UAV's.
    Given that the Fire Scout UAV has been selected to be part 
of your Future Combat System force, would the Army be served 
better by accelerating procurement of Fire Scout UAV's instead 
of buying more legacy systems?
    General Schoomaker. Sir, I would have to--again, I would 
have to take that for the record. I know that UAV's are a 
significant part of our future and a growing part because the 
potential there is great. I know as we move to FCS, the Future 
Combat System, that they are going to be a large part of that.
    As you know, we have had some significant success with 
UAV's in the current conflict. We are starting to see greater 
potential in some of that. But as to the specifics of that, I 
would have to go for the record.
    [The information follows:]

                            UAV Procurement

    In order to meet the current requirements for Operation 
Iraqi Freedom and the Global War on Terrorism, we are 
accelerating the procurement of Unmanned Aerial Vehicles (UAVs) 
already in production, such as the Shadow Tactical UAV, and the 
Raven Small UAV. We are also working to accelerate future 
systems such as Fire Scout and the Extended Range/Multi-Purpose 
(ER/MP) UAVs. However, both of these future systems are still 
in development and thus not available today to meet the 
warfighter's need. Army commanders engaged in current 
operations hail the capabilities of the Shadow UAV, which 
supports Current Force mechanized, light, and Stryker Brigade 
Combat Teams, and the Hunter UAV systems, which are fielded to 
III Corps, Fort Hood, Texas, XVIII Airborne Corps, Fort Bragg, 
North Carolina, and V Corps, U.S. Army Europe, and serve as the 
interim ER/MP UAV. Both current and future UAV systems are part 
of the Army's UAV strategy. However, in order to meet the 
immediate needs of combatant commanders, we must equip our 
units with these current systems until Future Force UAV systems 
are developed, integrated and ready for fielding.

    Senator Cochran. I hope you would also include in your 
response for the record whether or not you think that the $300 
million is an adequate investment in advanced UAV's.

                          AMMUNITION SHORTAGES

    There is also a critical shortage of both training and war 
reserve ammunition, such as the Hydra-70 rocket. The decision 
to cancel the Comanche program and procure new helicopters will 
increase the need for training ammunition and of course war 
reserve ammunition. The question is how does the Army plan to 
address these shortfalls, which we understand could be as high 
as $16 billion?
    General Schoomaker. Sir, we moved $30 million this year to 
increase the capacity of Lake City, which is your small 
caliber, 50 caliber and below small arms ammunition, which is 
going to mitigate. I think by the end of this year, we will 
have capacity that will turn the corner and mitigate the 
shortfalls we have had in small arms, which I have been very 
concerned about.
    As part of the Comanche program, we moved $155 million of 
that program as part of the aviation reset, part of the 
aviation fix, to the Hydra rocket program. I think it buys 
something like 163,000 Hydra rockets in this program; and $93 
million into the Hellfire line. This was the point I tried to 
make earlier. This movement of money from Comanche into fixing 
Army aviation is not just about the helicopters. It is about 
UAV, it is about ammunition, it is about MILCON, it is about 
simulations, it is about training. It is a holistic approach to 
fixing Army aviation, and the point that you have made right 
there is one of the most significant.
    Senator Cochran. Thank you very much.

                        THEATER SUPPORT VEHICLES

    I understand too that the Army has been impressed by the 
performance of leased high-speed vessels and is considering 
leasing these types of craft as theater support vessels. There 
are several American shipyards capable of producing these 
vessels both quickly and economically based on what I 
understand to be successful experimentation. What are the 
Army's plans for procurement of theater support vessels?
    Mr. Brownlee. Sir, we have been impressed by the capability 
of those vehicles. We are right now considering how they can 
help us in our deployments and so we are studying how we can do 
that. We do not have right now any plans to lease, but we are 
considering how that vehicle can be used. It is much faster 
than a normal ship and for some of our deployments we believe 
it would be very useful. So we are looking at that.
    Senator Cochran. Thank you very much, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    Gentlemen, good to see you, all of you. You have a pretty 
impressive bench behind you.
    General Schoomaker. Sir, we need a lot of help.
    Senator Leahy. I do not think so, but you have good help 
there and that is good.

                              ADD-ON ARMOR

    I understand Secretary Brownlee mentioned before I came in 
about the Bradley reactive armor and that you do not have 
enough. When I first heard about this reactive armor years ago, 
I said, you have got to be kidding, the way it was described. 
Then I started seeing some of the tests and all and I must 
admit I am very, very much of a fan. I think it is critical. I 
have heard great things about its performance. I hope we can 
get the funds to expand it. If my son or daughter were among 
those in this armor, I would want it there yesterday. I know 
some of our Guard forces that are going over into Iraq and 
scrounging armor wherever they can, I think it is important we 
get it out.

                          COMANCHE TERMINATION

    General, on the Comanche program, General Cody had given me 
a call at home before that to let me know about the decision. 
Of course, I must admit we did end up chitchatting a little bit 
about Montpelier, Vermont, and you are welcome to come up there 
any time. As the Secretary has mentioned, General Richard Cody 
and I both come from Montpelier, Vermont, and knew each other 
when we were growing up. We only say good things about each 
other because it is sort of a mutual deterrent pact. But I 
cannot really think of anything bad to say about him.
    But he told me about the Comanche program. I thought it was 
a good decision. I thought it was taking resources away from 
too many other very critical aviation programs, all the 
infrared missile countermeasures for example.

                 HEALTH USAGE MONITORING SYSTEM (HUMS)

    Let me just mention one, and I admit this is probably the 
first time any parochial type questions have ever come out of 
this committee, but it is the HUMS program, the Integrated 
Mechanical Diagnostic Health and Usage Monitoring System. I am 
glad my staff wrote it all out because I have just called it 
``HUMS'' and I never was quite sure what it stood for.
    But we are using it on the Blackhawks of the 101st Airborne 
Division. It is a great diagnostic system. I have seen it 
demonstrated. If I was commander and I had 10 helicopters out 
there, I would want to know exactly which of the 10 can go out 
or how many can go out, and so on.
    Are we going to reach a point where we might be equipping 
all our helicopters with HUMS? Are we going to be able to find 
money for that? I see it as sort of like cheaper to fix the 
roof before the rainstorm kind of thing. Mr. Secretary, what do 
you think about this?
    Mr. Brownlee. Sir, I know that we have an intense interest 
in those kinds of diagnostics maintenance equipment. It has 
great use. I am not familiar with right now the extent to which 
we intend to buy those and equip all our helicopters with them, 
but we can certainly provide that for the record.
    [The information follows:]

                 Health Usage Monitoring System (HUMS)

    The Army is currently performing a two-year demonstration 
on the Health Usage Monitoring System (HUMS). The 101st Air 
Assault Division tested HUMS on a number of UH-60 Blackhawks 
while deployed to Iraq. The initial reports from this 
demonstration are positive. The Army will use the data from 
this demonstration to help guide its future policies on 
installation and utilization of these types of diagnostic 
systems. For future systems, the AH-64D Block III, UH-60M, and 
CH-47F programs are planning to install some type of organic 
maintenance diagnostic system.

    Senator Leahy. Yes, would you have your staff talk to mine. 
Let us know where we are on that, because it is something I 
have followed very closely. I have helped get some of the money 
through here for the pilot programs. I have been impressed. I 
have had some things I have helped get money for pilot 
programs, they have not worked. I have freely admitted that. 
Others do, and this one does seem to work.
    General Schoomaker. Sir, if I could add to that, I think 
General Cody explained to you, again as part of our Army 
aviation modernization program, that as we transfer money from 
Comanche it is our intent to go to a two-level maintenance 
system in that, as well as going to the automated logbook on 
these aircraft. So I am not sure that this system you are 
talking about is integral to that, but we are certainly 
committed to a far advanced system of maintenance management to 
increase our operational readiness and impact the force 
maintaining-wise.
    Senator Leahy. Thank you, General.

                    POST-TRAUMATIC STRESS TREATMENT

    My last subject. I was up here 3 or 4 weeks ago in Vermont 
on a beautiful Sunday morning, having my coffee. My wife is a 
nurse. She worked on medical-surgical floors and all, and has 
also spent time with the Veterans Administration (VA) hospital 
system when I was in law school. She said: Patrick, you have 
got to read this. It was this New York Times, this New York 
Times magazine, ``Coming Home.'' It is basically talking about 
soldiers with post-traumatic disorder. In my generation we 
called it shell shock.
    It was a very moving article. Since then I cannot tell you 
the number of e-mails I have gotten from veterans, from parents 
of people who were over abroad, those who are parents of people 
in the military or spouses or what-not, who sent me this 
article. Of course, we have all the reports of depression and 
suicide among our troops. I went out with some other Senators 
and my wife to have dinner one evening out at Walter Reed, and 
just some of the stories I was hearing there.
    The condition requires specialized treatment. You have to 
have a system in there that will encourage troops to come 
forward. You are out there, you are facing terrible danger. You 
may get shot, you may be seriously wounded. You have proven 
your bravery, and our men and women are brave. But then there 
seems to be among some that it is not brave to come forward and 
ask for this treatment.
    It has got to be there. You have got to make sure it is 
there. I am going to looking at it both on this committee and 
on the subcommittee I serve on that oversees the VA.
    But can you give me just a broad overview? What kind of 
programs do we have? Because I find the suicide rate alarming 
among our forces. I find the people who come back terribly 
injured, and I do not want them to be rejects of society. They 
have earned an awful lot more than that.
    Mr. Brownlee. Sir, I could not agree more. I appreciate all 
of the members who have gone out and visited our troops at 
Walter Reed and other hospitals. Clearly, the sacrifices that 
these young soldiers have made for our country are deserving of 
the very best attention we can get them. I have addressed your 
specific questions to those at Walter Reed. This is an integral 
part of their care. They receive this kind of care and 
counseling right along with the physical medical part, and it 
is just clearly integrated in their care.
    Senator Leahy. Is this budget going to reflect that?
    Mr. Brownlee. Yes, sir. Yes, sir, it is.
    I should also tell you that, while the number of suicides 
in the theater has been more than is acceptable to us, it is 
not significantly above the norm, and there are still some 
cases that are not properly determined and that could put us 
substantially or more above the norm. But we conducted, for the 
first time in a combat theater, a mental health assessment. We 
sent a team out, visited units, talked to soldiers, gathered 
data, and came back with some conclusions and recommendations 
for how we can do better, not during the war or after the war, 
but before we send troops in, what we can do to prepare them 
better, as well as--so that they can cope better with the 
situations that they face.
    I thought it was significant that that was done while the 
troops were committed there. But it is the first time we had 
ever done that.
    Senator Leahy. I commend you for doing that, Mr. Secretary. 
I think it is extremely important. I know our men and women are 
motivated, but sometimes the things they face are something 
they really did not understand. I remember the conversations I 
had with my son after he finished out in Parris Island with the 
Marine Corps. Of course, like all former marines, the further 
he is removed from that the more enjoyable I guess it was. But 
at least there they always knew when the explosions were going 
off or anything else that that night or the next night or the 
next night they are going to be back in their barracks and the 
only thing they had to worry about was their drill instructor.
    Now we have people out and they are seeing their friends 
having their limbs blown off and all and they are facing real 
danger, which is unavoidable in these situations. I just want 
to make sure that we fulfill our commitment--we tell them to go 
out--we fulfill our commitment when they come back. Some of 
them--on the one hand, I am very impressed when I see some of 
these high-tech prosthetics we have for those who have lost 
limbs, which are really amazing. But you also have to have--it 
is not just their bodies with some of them.
    So I commend you for sending the team out, and please have 
your staff keep in touch with me if you have areas in there 
that you think would be worthwhile to know.
    Mr. Brownlee. Yes, sir, we will.
    If I could just add, Mr. Chairman, because I would like for 
the committee to know. When we first started getting wounded 
soldiers back to Walter Reed in significant numbers and with 
the very kind of grievous wounds they had, where they had 
clearly lost limbs and this sort of thing, where many of them 
were going to be medically retired as disabled--it is amazing 
the numbers that want to stay in even though they have lost 
limbs, and some have stayed. But I contacted Tony Principi, a 
dear friend of mine who runs the Veterans Affairs Department. 
We have put together a team. We have people in his 
organization. He has people from his organization working at 
Walter Reed and other places, and the whole intent of this is 
to ensure we have a seamless system for these soldiers, so that 
if they are medically retired from the military and then become 
part of the Veterans Affairs Department responsibilities nobody 
gets dropped off. We take care of them through that, manage 
them through that process.
    His intent and mine is to make sure that for every single 
wounded soldier that is medically retired and becomes a part of 
the Veterans Affairs responsibility that that is a seamless 
operation.
    Senator Leahy. I have gone over my time. Let me just say 
that I talked to one young soldier who was there. His wife was 
with him and they have a little child, and he was showing me 
this leg, mechanical leg, with the computer sensors in it. I 
said: Well, what are you going to do now? He looks at me like: 
What kind of a question is that, sir? I want to be right back 
in the Army. He said: I am going to work hard with this because 
I want to go back. I thought: Good for you.
    Mr. Brownlee. And many of them have, sir.
    Senator Leahy. Thank you.
    Mr. Chairman, thank you very much. It is good to see both 
General Schoomaker and Secretary Brownlee. Thank you.
    Senator Stevens. Yes, we all thank you very much, Mr. 
Secretary and General. I do think there is a lot of comment 
being made around here now about how the Army is being harmed 
by these decisions that have been made with regard to the 
budget. I want to tell you before we finish our bill we will 
confer with you to make sure that you have the flexibility you 
need to use any funds that are available, not just in the 
Department of Defense, but to the President, period, to assure 
there be no shortfall in funds while we have soldiers in the 
field, keeping in mind that from this Senator's point of view 
the worst thing that can possibly happen to the Army as well as 
the Senate is to have a post-election session. We get nothing 
done and I assure you you would not get any more money after 
the election than you would get after January 1, but it would 
be a very arduous period in which to try to get it.

                     ADDITIONAL COMMITTEE QUESTIONS

    I would like to avoid a post-election session in the 
interests of the people who are at war. We do not need that 
after the election. I hope to work with you to make sure you 
have the money you need and have all the flexibility you need.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted to Hon. Les Brownlee
             Question Submitted by Senator Pete V. Domenici

                      SCIENCE AND TECHNOLOGY (S&T)

    Question. I note that basic and applied research comprises only 
about one-tenth of the Army's $10.4 billion request for RDT&E funding 
in fiscal year 2005. While funding for development of mature 
technologies is important, it has long been my belief that investments 
in basic science and technology are where cutting-edge breakthroughs 
occur. For DOD, this means that our warfighters are able to employ 
transformational technologies sooner. Would you please comment on the 
importance of basic S&T investments for Army transformation?
    Answer. The Army's basic research program produces new knowledge to 
fuel revolutionary advances and leap-ahead technology that enable Army 
Transformation. The program invests in world-class expertise 
(government, academic, and industry) and state-of-the-art equipment. It 
balances its investment between in-house Army unique research and 
leveraging external scientific research that has great potential for 
military applications. The fiscal year 2005 budget submission reflects 
the Army's sustained commitment to make leap-ahead science and 
technology (S&T) investments that will provide high payoff 
transformational capabilities for our Soldiers.
    Army S&T investments, laboratories, and research, development, and 
engineering centers are essential to provide America's Army with 
sustained overmatch in land combat. The Army continues to maintain a 
robust S&T portfolio and workforce to provide solutions to fill the 
capability gaps being identified in current operations in Afghanistan 
and Iraq and will continue to do so in the future. Through its S&T 
investments, the Army fosters innovation and accelerates and matures 
technologies to enable Future Force capabilities and exploit 
opportunities to transition technologies to the Current Force.

                                 ______
                                 
               Questions Submitted by Senator Judd Gregg

                                 ATIRCM

    Question. In addition to updating deployed Aircraft Survivability 
Equipment (ASE) systems, it is my understanding that the Army has 
successfully developed and begun to produce a next generation system, 
the Advanced Threat Infrared Countermeasure (ATIRCM) that will protect 
helicopter crews from threats they currently face. What are the Army's 
plans to deploy the ATIRCM to rotary wing assets?
    Answer. The ATIRCM consists of an active LASER jammer and functions 
as part of a suite containing a Common Missile Warning System, an 
Improved Countermeasure Munitions Dispenser (ICMD), and the Advanced 
Infrared Countermeasure Munitions (AIRCMM--flares). This system 
protects aircraft against all known and currently projected infrared 
threat missile systems. The Army will start fielding the ATIRCM to Army 
Special Operations Aviation in the near future. Conventional Army 
Aviation units will receive the ATIRCM shortly thereafter. Recent 
decisions resulted in accelerating the fielding of the ATIRCM system by 
three full years.
    Question. Secretary Brownlee, the Congress provided approximately 
$7 million in fiscal year 2004 for the development and integration of 
the Advanced Threat Infrared Countermeasure Multi-Band Laser. This 
Multi-Band Laser is a pre-planned product improvement to the Advanced 
Threat Infrared Countermeasure system. What is the status of this 
effort?
    Answer. The Army is in the process of negotiating a task order with 
the Advanced Threat Infrared Countermeasure (ATIRCM) Lead Systems 
Integrator (BAE) to complete the design of the Multi-Band Laser for 
ATIRCM. The estimated award date is scheduled to be not later than 
April 15, 2004.
    Question. Secretary Brownlee, it is my understanding that the Army 
plans to upgrade the Advanced Threat Infrared Countermeasure (ATIRCM) 
system with a multi-band laser that is being developed specifically for 
the ATIRCM program. Furthermore, the Army has considered inserting an 
alternative Multi-Band Laser, developed for the Air Force, into ATIRCM. 
What analysis has the Army or Air Force done on the effectiveness of 
this alternative Multi-Band Laser
    Answer. The U.S. Air Force has done extensive testing of their 
multi-band laser (MBL) for use with large aircraft. This testing 
includes live missile firings, lab testing, and simulations. The 
results of this testing demonstrates that their MBL is effective for 
large aircraft. The Air Force has made a great deal of this information 
available to the Army. The Army has analyzed this data and determined 
that the Air Force MBL could be effective for rotary aircraft. However, 
the Army has also determined that integration of this MBL would be 
schedule prohibitive and would not meet our acceleration requirements.

                                 ______
                                 
           Questions Submitted to General Peter T. Schoomaker
            Questions Submitted by Senator Pete V. Domenici

                      IMPROVISED EXPLOSIVE DEVICES

    Question. Does the Army have the authorities it needs to get 
existing technologies in the hands of Task Force Improvised Explosive 
Device (IED) to better detect these bombs? If not, what authorities do 
you need?
    Answer. The Army has sufficient legislative authorities to 
accelerate and transition proven technologies to the IED Task Force. 
Sustained Science and Technology (S&T) investments over time have 
enabled Army S&T organizations, including the U.S. Army Materiel 
Command's Research Development and Engineering Command and the Army 
Corps of Engineers' laboratories, to quickly develop and provide 
expedient solutions to the warfighter in support of the Global War on 
Terrorism. Examples of successful S&T solutions already being provided 
to the warfighter to counter the IED threat include: omni-directional 
under vehicle inspection systems to detect IED and contraband and an 
electronic countermeasure system that provides force protection by 
jamming the prevalent electronic detonators being used to set off IEDs.

                        RECRUITING AND RETENTION

    Question. What is the active-duty Army doing (besides temporarily 
increasing end-strength) to alleviate its reliance on Guard and 
Reserves? Can the Army better manage its use of personnel to ensure 
more of its active-duty component is available to participate in future 
operations?
    Answer. In conjunction with temporarily increasing end-strength, 
the Army is rebalancing its Active Component/Reserve Component (AC/RC) 
capabilities to meet combatant commander needs with an expeditionary, 
campaign quality force. The Army is working to provide the proper 
Active and Reserve Component balance of units to enhance high demand 
and early deploying capabilities. Changes contained in the Program 
Objective Memorandum for fiscal years 2004-09 reduce stress on existing 
high demand units in both the AC and RC by converting approximately 
30,000 of ``Cold War'' force structure. Additionally, we are reducing 
structure and creating a Trainees, Transients, Holdees, and Students 
account in the Army National Guard and Army Reserve. This enhances RC 
readiness by allowing the assignment to units of only those Soldiers 
who are available for deployment. To reduce RC demand for current 
operations in Iraq, the Office of the Secretary of Defense has called 
upon the U.S. Marine Corps to provide a division sized force for 
Operation Iraqi Freedom (OIF) 2. The Active Component is aggressively 
reconstituting forces while converting to a modular based unit design 
to increase capabilities for the Global War on Terrorism and prepare 
for potential OIF3 and 4 deployments.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Thank you both very much.
    General Schoomaker. Thank you, sir.
    Mr. Brownlee. Thank you, Mr. Chairman.
    [Whereupon, at 11:46 a.m., Wednesday, March 3, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 10.]

</pre></body></html>
